Oversight of and Compliance With
Conditions and Representations
Related to Exemptive Orders and
No-Action Letters




                               June 29, 2011
                              Report No. 482
                                                UNLTED STATES
                              SECURITIES AND EXCHANGE COMMISS I ON
                                          WASHLNGTON, D.C.     20549


o .... 'c"   0"




                                       MEMORANDUM
                                               June 29, 2011

         To:              Eileen Rom inger, Director, Division of Investment Management
                          Robert W. Cook, Director, Division of Trading and Markets
                          Meredith Cross, Director, Division of Corporation Finance
                          Carlo V. di Florio , Director, Office of Compliance Inspections and
                            Examinations

             From:         H. David Kotz, Inspector General, Office of Inspector General   (OI~.t7k
             Subject:      Oversight of and Compliance with Conditions and Representations
                           Related to Exemptive Orders and No~Action Letters, Report No.
                           482

             This memorandum transmits the U.S. Securities and Exchange Commission
             OIG's final report detailing the results of our review of the SEC's oversight of and
             compliance with the cond itions and representations related to exemptive orders
             and no~action letters. This review was conducted as part of our continuous effort
             to assess management of the Commission's programs and operations and as a
             part of our annual audit plan.

             The final report contains five recommendations which if fully implemented should
             enhance the Commission's oversight of compliance with conditions and
             representations in exemptive orders and no ~action letters. The respective offices
             concurred with all five of the report's recommendations. Your written response to
             the draft report is included in Appendix V.

             Within the next 45 days, please provide the OIG with a written corrective adion
             plan that is designed to address the report's recommendations. The corrective
             action plan should include information such as the responsible official/point of
             contact, timeframes for completing required actions , and milestones identifying
             how you will address the recommendations.




       Oversight and Compliance—Exemptive Orders and No-Action Letters                      June 29, 2011
       Report No. 482
                                                          ii
Should you have any questions regarding this report, please do not hesitate to
contact me or Jacqueline Wilson at ext. 16326. We appreciate the courtesy and
cooperation that you and your staff extended to our auditor.

Attachment

cc:    James R. Burns, Deputy Chief of Staff, Office of the Chairman
       Luis A. Aguilar, Commissioner
       Troy A. Paredes, Commissioner
       Elisse B. Walter, Commissioner
       Kathleen L. Casey, Commissioner
       Jeff Heslop, Chief Operating Officer, Executive Director, Office of Chief
         of Operations
       James A. Brigagliano, Deputy Director, Division of Trading and Markets
       John H. Walsh, Chief Counsel, Office of Compliance Inspections and
         Examinations
       Douglas J. Scheidt, Chief Counsel, Division of Investment Management
       Thomas Kim, Chief Counsel, Division of Corporation Finance




Oversight and Compliance—Exemptive Orders and No-Action Letters       June 29, 2011
Report No. 482
                                           iii
Oversight of and Compliance With
Conditions and Representations Related to
Exemptive Orders and No-Action Letters

                                   Executive Summary
Background. The Securities and Exchange Commission (SEC or Commission)
has statutory authority to issue exemptive orders, in response to an entity’s
request, that allow the entity to engage in transactions that would otherwise be
prohibited by the securities laws, rules, or regulations. In some instances,
instead of exemptive relief, a company may request a “no-action” letter from
Commission staff. A no-action letter states that the staff will not recommend
enforcement action in response to the entity’s proposed activity. Exemptive
orders and no-action letters allow the Commission to provide flexibility and
accommodate situations not originally contemplated by the securities laws.

The Commission’s statutory general authority to provide exemptive relief is
located in Section 28 of the Securities Act of 1933, Sections 12(h) and 36 of the
Securities Exchange Act of 1934, Section 6(c) of the Investment Company Act,
and Section 206A of the Investment Advisers Act of 1940. The Commission has
delegated authority to its program Divisions to issue exemptive orders. The
Division of Investment Management provides exemptive relief under the
Investment Company Act of 1940 and the Investment Advisers Act of 1940. The
Division of Trading and Markets provides exemptive relief pursuant to the
Securities Exchange Act of 1934 to entities, including regulated entities such as
broker-dealers and exchanges, and for certain market activities. The Division of
Corporation Finance provides exemptive relief under the securities registration
and reporting sections of the Securities Exchange Act of 1934. These divisions
may coordinate on exemptive relief regarding cross-cutting securities laws
issues—for example, auction rate securities.

Exemptive relief was not intended to provide unrestricted or unlimited relief from
the securities laws and rules, however. For example, the Commission has noted
the following regarding the general exemptive authority under the Investment
Company Act of 1940: “[T]he exceptional power under Section 6(c) to free any
person from any or all provisions of the [Investment Company] Act is one which
must be exercised with circumspection and with full regard to the public interest
and the purposes of the [Investment Company] Act . . . .” 1 In order to provide
exemptive relief under Section 36 of the Exchange Act, “the Commission must
determine that the exemption is necessary or appropriate in the public interest
and is consistent with the protection of investors.” 2 While the Commission may
1
    In re The Great American Life Underwriters, Inc., File No. 811-423 (July 15, 1960) at 5 (footnote omitted).
2
    “Exchange Act Exemptive Applications,” www.sec.gov/rules/exempt.shtml.
Oversight and Compliance—Exemptive Orders and No-Action Letters                                 June 29, 2011
Report No. 482
                                                        iv
provide unconditional exemptive relief, it generally requires that the recipient of
the relief comply with specified conditions. If the SEC grants an exemption that
contains conditions, the requestor must adhere to the conditions of the exemptive
relief issued by the Commission or a Division acting pursuant to delegated
authority in order for the exemption to have any effect.

In some instances, instead of exemptive relief from the provisions of the
securities laws, a company will request assurances, known as “no-action” letters,
from Commission staff that the staff will not recommend enforcement action in
response to the company’s proposed activity. No-action letters expressly
represent only a position by the staff based on the facts and circumstances
described in the request, and the letters expressly do not represent legal
conclusions or opinions. No-action letters are intended to assist industry in
complying with the securities laws by providing the Divisions’ staff positions on
contemplated transactions. The Division staff clearly state in the no-action letters
that the relief granted is based solely on the facts and representations presented,
and that any different facts or conditions might require another conclusion.

Compliance by registered entities with the conditions and representations in
exemptive orders and no-action letters is reviewed primarily by the Office of
Compliance Inspections and Examinations (OCIE) as part of its inspections and
examinations program. OCIE conducts examinations of firms that are registered
with the Commission, including registered broker-dealers, transfer agents,
clearing agencies, investment advisers, and investment companies (collectively
“regulated entities”). According to OCIE, it has been a longstanding practice for
examiners to review, as part of pre-examination work, exemptive orders and no-
action letters that have been issued to the registrant being examined. OCIE
indicated that an examination report or deficiency letter will include the results of
OCIE’s review of compliance with exemptive orders or no-action letters if
potential violations of the law are found. The Division of Trading and Markets’
Office of Market Operations has on occasion reviewed compliance with
information technology-related conditions of certain temporary exemptive orders,
but does not engage in any systematic monitoring of such orders.

Objectives. The objective of the review was to assess the Commission’s
processes for ensuring adherence to the conditions under which exemptive
orders and no-action letters are granted to regulated entities.

Prior OIG Audit Report. The Office of Inspector General audited the exemptive
application process in the Division of Investment Management’s Office of
Investment Company Regulation (Report No. 408, September 29, 2006), to
determine whether the process was timely and to recommend improvements.
The report included 13 recommendations. Recommendations to enhance
timeliness included issuing exemptive rules, filing applications electronically, and
restricting or eliminating the review of draft exemptive applications. Other
recommendations included returning poorly prepared applications, developing

Oversight and Compliance—Exemptive Orders and No-Action Letters          June 29, 2011
Report No. 482
                                           v
standard follow-up procedures, improving performance measures, and revising
the database for exemptive applications. The Division of Investment
Management concurred with and addressed all 13 recommendations, and the
recommendations were closed.

Results. The review found that the Commission can improve its processes for
monitoring compliance with conditions and representations related to exemptive
orders and no-action letters in a variety of ways. Significantly, the review found
that the SEC’s Divisions that issue exemptive orders and no-action letters to
regulated entities do not have a coordinated process for reviewing these entities’
compliance with the conditions and representations contained in the orders and
letters, and instead rely on OCIE to review compliance as part of its
examinations. Because exemptive orders and no-action letters allow industry
participants to conduct activities that, without the relief, could violate the
securities laws and regulations, the review determined that monitoring is
important to ensure the compliance with the conditions and representations in
exemptive orders and no-actions letters issued to regulated entities. To achieve
effective monitoring, the Divisions should engage in increased coordination with
OCIE’s examinations of regulated entities as they pertain to compliance with the
conditions and representations in exemptive orders and no-action letters.

The review further determined that the Divisions separately track data regarding
processed exemptive orders and no-action letters in various ad hoc
spreadsheets and databases and that the collected data does not include
information on compliance with the conditions and representations in exemptive
orders and no-action letters. In addition, while OCIE’s examination tracking
system tracks violations of the federal securities law identified through
inspections and examinations, OCIE’s system does not identify the exemptive
order or no-action letter that may be related to the violation. The review also
found that while the Divisions and OCIE occasionally share information pertinent
to exemptive orders and no-action letters, the process is informal and not
systematic. Because the Divisions do not systematically capture and analyze
data on compliance with the conditions and representations in exemptive orders
and no-action letters issued to regulated entities, we determined that the
Commission is less effective than it could be in monitoring compliance with such
conditions and representations.

Similarly, the review found that the SEC’s current organizational structure
separates the agency’s rulemaking and examinations functions and that there is
no formalized coordination between these functions. As noted above, there is
also no formalized process for monitoring or ensuring compliance with the
conditions and representations in exemptive orders and no-action letters. We
noted that the Dodd-Frank Wall Street Reform and Consumer Protection Act of
2010 requires the Divisions of Investment Management and Trading and Markets
to include examiners on their staffs to provide these Divisions with expertise in
inspections and regulations of those Divisions.

Oversight and Compliance—Exemptive Orders and No-Action Letters       June 29, 2011
Report No. 482
                                           vi
During the review, we learned that notwithstanding the fact that noncompliance
with the conditions and representations in exemptive orders and no-action letters
could result in significant violations of the securities laws, OCIE and the Divisions
do not view the granting of exemptive and no-action relief, per se, as a
substantial noncompliance risk because of the self-executing nature of the relief
granted. A sample of examination reports reviewed in our review, however,
revealed numerous instances in which OCIE examinations found deficiencies in
compliance with conditions and representations in exemptive orders and no-
action letters. The review found that, despite the noncompliance noted, OCIE’s
present risk-rating system does not incorporate the issuance of exemptive orders
or no-action letters as per se risk factors. Therefore, the review determined that
the Divisions and OCIE could identify areas of exemptive and no-action relief to
consider as potentially significant risks.

Summary of Recommendations. The report makes five recommendations that
are intended to enhance the Commission’s oversight of compliance with
conditions and representations in exemptive orders and no-action letters: (1) the
Divisions of Investment Management, Trading and Markets, and Corporation
Finance should develop processes for coordinating with OCIE regarding
reviewing for compliance with conditions and representations in exemptive orders
and no-action letters issued to regulated entities on a risk basis; (2) the Divisions
of Investment Management, Trading and Markets, and Corporation Finance, in
coordination with the Office of Information Technology and OCIE, should develop
and implement processes to consolidate, track, and analyze information
regarding exemptive orders and no-action letters; (3) the Divisions of Investment
Management and Trading and Markets should, in their plans for implementing
the Dodd-Frank Wall Street Reform and Consumer Protection Act requirement
that they establish their own examination staffs, develop procedures to
coordinate their examinations with OCIE and include provisions to review for
compliance with conditions and representations in exemptive orders and no-
action letters on a risk basis; (4) the Divisions of Investment Management and
Trading and Markets should include compliance with the conditions and
representations in significant exemptive orders and/or no-action letters issued to
regulated entities as risk considerations in connection with their monitoring
efforts; and (5) OCIE should include compliance with conditions and
representation in significant exemptive orders and no-action letters issued to
regulated entities as risk considerations in connection with its compliance efforts.




Oversight and Compliance—Exemptive Orders and No-Action Letters         June 29, 2011
Report No. 482
                                           vii
TABLE OF CONTENTS
Executive Summary ..................................................................................................... iv

Table of Contents ........................................................................................................ ix

Background and Objective .................................................................................... 1
     Background ....................................................................................................... 1
     Objective .......................................................................................................... 13

Findings and Recommendations ........................................................................ 14
     Finding 1: The SEC’s Divisions That Issue Exemptive Orders and No-
     Action Letters Do Not Have a Coordinated Process for Ensuring
     Adherence to the Conditions and Representations Contained Therein............ 14
                   Recommendation 1..................................................................... 17

         Finding 2: Data on Compliance With the Conditions and Representations
         in Exemptive Orders and No-Action Letters Are Not Effectively Captured,
         Tracked, and Analyzed .................................................................................... 18
                      Recommendation 2..................................................................... 20

         Finding 3: The Organizational Structure of the Regulatory Programs
         Separates the Issuance of Exemptive and No-Action Relief From
         Compliance Monitoring .................................................................................... 21
                      Recommendation 3..................................................................... 23

         Finding 4: Exemptive and No-Action Relief Are Not Considered Risk
         Factors in the Selection of Firms for OCIE Examinations ................................ 24
                       Recommendation 4..................................................................... 29
                       Recommendation 5..................................................................... 29

Appendices
    Appendix I: Abbreviations/Acronyms. .............................................................. 30
    Appendix II: Scope and Methodology .............................................................. 31
    Appendix III: Criteria ........................................................................................ 34
    Appendix IV: List of Recommendations .......................................................... 36
    Appendix V: Management’s Comments .......................................................... 37
    Appendix VI: OIG Response to Management’s Comments............................. 44




Oversight and Compliance—Exemptive Orders and No-Action Letters                                     June 29, 2011
Report No. 482
                                                        viii
                      Background and Objective

Background
Exemptive Orders
The U.S. Securities and Exchange Commission’s (SEC or Commission) general
exemptive authority is found in several different statutes administered by the
SEC. Section 28 of the Securities Act of 1933 (Securities Act), Sections 12(h)
and 36 of the Securities Exchange Act of 1934 (Exchange Act), Section 6(c) of
the Investment Company Act of 1940 (Investment Company Act), and Section
206A of the Investment Advisers Act of 1940 (Advisers Act) all provide, using
similar wording, for exemptions of persons, securities, or transactions from
provisions of law, rules, or regulations.

Section 28 of the Securities Act provides that “[t]he Commission, by rule or
regulation, may conditionally or unconditionally exempt any person, security, or
transaction, or any class of persons, securities, or transactions, from any
provision or provisions of this title or of any rule or regulation issued under this
title, to the extent that such exemption is necessary or appropriate in the public
interest, and is consistent with the protection of investors.” 3

Section 12(h) of the Exchange Act states that “[t]he Commission may by rules
and regulations, or upon application of an interested person, by order, after
notice and opportunity for hearing, exempt in whole or in part any issuer or class
of issuers from the provisions of subsection (g) of this section or from section 13,
14, or 15(d), or may exempt from section 16 any officer, director or beneficial
owner of securities of any issuer, any security of which is required to be
registered pursuant to subsection (g) hereof, upon such terms and conditions
and for such period as it deems necessary or appropriate, if the Commission
finds, by reason of the number of public investors, amount of trading interest in
the securities, the nature and extent of the activities of the issuer, income or
assets of the issuer, or otherwise, that such action is not inconsistent with the
public interest or the protection of investors.”

Section 36 of the Exchange Act states that “the Commission, by rule, regulation,
or order, may conditionally or unconditionally exempt any person, security, or
transaction, or any class or classes of persons, securities, or transactions, from
any provision or provisions of this title or of any rule or regulation thereunder, to
the extent that such exemption is necessary or appropriate in the public interest,
and is consistent with the protection of investors.”

3
 Unlike the other statutes referenced, the Securities Act does not provide authority for exemptions through
orders, but only by rule or regulation.

Oversight and Compliance—Exemptive Orders and No-Action Letters                             June 29, 2011
Report No. 482
                                                 Page 1
Section 6(c) of the Investment Company Act states that “[t]he Commission, by
rules and regulations upon its own motion, or by order upon application, may
conditionally or unconditionally exempt any person, security, or transaction, or
any class or classes of persons, securities, or transactions, from any provision or
provisions of this title or of any rule or regulation thereunder, if and to the extent
that such exemption is necessary and appropriate in the public interest and
consistent with the protection of investors and the purposes fairly intended by the
policy and provisions of this title.”

Section 206A of the Advisers Act provides that “[t]he Commission, by rules and
regulations, upon its own motion, or by order upon application, may conditionally
or unconditionally exempt any person or transaction, or any class or classes of
persons, or transactions, from any provision or provisions of this title or of any
rule or regulation thereunder, if and to the extent that such exemption is
necessary or appropriate in the public interest and consistent with the protection
of investors and the purposes fairly intended by the policy and provisions of this
title.”

In addition, Section 304(d) of the Trust Indenture Act of 1939 provides that “[t]he
Commission may, by rules or regulations upon its own motion, or by order on
application by an interested person, exempt conditionally or unconditionally any
person, registration statement, indenture, security or transaction, or any class or
classes of persons, registration statements, indentures, securities, or
transactions, from any one or more of the provisions of this title, if and to the
extent that such exemption is necessary or appropriate in the public interest and
consistent with the protection of investors and the purposes fairly intended by this
title.”

During hearings before a subcommittee of the U.S. House of Representatives
Committee on Interstate and Foreign Commerce on H.R. 10065, a bill to provide
for the regulation of investment companies and investment advisers, an SEC
counsel told Congress that the proposed Section 6(c) of the Investment
Company Act “empowers the Commission to exempt any person or transaction if
it is not inconsistent with the purpose of the title.” 4 At Senate subcommittee
hearings on the same topic, the SEC counsel further explained the rationale
behind the Section 6(c) exemptive provision by stating, in part, “You cannot
possibly anticipate a transaction which you feel should not come within any
specific provision of this bill, and you cannot possibly anticipate any person who
may or may not come within the specific provisions of this bill. . . . If conditions
exist or arise which manifestly are not within the legislative intent of this
legislation, then the Commission should be in a position to exempt those in that


4
 Statement of David Schenker, Chief Counsel, Investment Trust Study, Securities and Exchange
Commission, at the Hearings Before a Subcommittee of the Committee on Interstate and Foreign
Commerce, House of Representatives, on H.R. 10065 (June 13-14, 1940), at 106.

Oversight and Compliance—Exemptive Orders and No-Action Letters                        June 29, 2011
Report No. 482
                                              Page 2
situation, and the industry should not be required to go to Congress to get a
statutory enactment to meet that specific situation.” 5

The legislative history of the Investment Company Act Amendments of 1970
explained that proposed Section 206A of the Advisers Act “would be the
counterpart of [S]ection 6(c) of the Investment Company Act, which gives the
Commission broad power to exempt any person, transaction, or security from
any provision of that statute. The flexibility which this amendment would
introduce into the administration of the Advisers Act is appropriate in view of the
broader coverage provided for by this bill.” 6 With respect to Section 28 of the
Securities Act, the exemption was added to allow “the Commission enhanced
flexibility to more easily adopt new approaches to registration, disclosure, and
related issues . . . . The Committee [on Commerce of the House of
Representatives] expects that the Commission will use this authority to promote
efficiency, competition and capital formation in the marketplace, consistent with
the public interest and investor protection.” 7 In addition, Section 36 was added to
the Exchange Act to “promote efficiency, competition and capital formation in the
marketplace, consistent with the public interest and investor protection.” 8

The Commission, acting by order, issues exemptions from statutory provisions
and Commission rules upon its own motion or pursuant to applications from
market participants. In some cases, these orders are issued by the staff acting
pursuant to delegated authority. The Division of Investment Management (IM)
provides exemptive relief under the Investment Company Act and the Advisers
Act to regulated entities, including investment companies and investment
advisers. The Division of Trading and Markets (TM) provides exemptive relief
pursuant to the Exchange Act to entities, including regulated entities such as
broker-dealers and exchanges, as well as for certain market activities. The
Division of Corporation Finance (CF) provides exemptive relief under the
securities registration and reporting sections of the Exchange Act to companies
with outstanding securities that may otherwise be subject to such sections, which
could include certain regulated entities. These three divisions may coordinate on
exemptive relief regarding cross-cutting issues—for example, auction rate
securities. 9 Assessment of compliance by regulated entities with the conditions
and representations in exemptive orders and no-action letters 10 is conducted

5
  Further Statement of David Schenker, Counsel for the Investment Trust Study, Securities and Exchange
Commission, at the Hearings of the Subcommittee of the Committee on Banking and Currency, United
States Senate on S. 3580 (Apr. 2-5 and 8-10, 1940), at 197.
6
  Report of the Committee on Banking and Currency, United States Senate, to Accompany S. 3724 (July 1,
1968) at 45.
7
  Report No. 104-622 of the House of Representatives Committee on Commerce, on the Securities
Amendments of 1996 (June 17, 1996).
8
  Id.
9
  See, e.g., Responses of the Office of Mergers and Acquisitions, Division of Corporation Finance, the
Division of Trading and Markets and the Division of Investment Management, Auction Rate Securities --
Global Exemptive Relief (Sep. 22, 2008).
10
   See pp. 7 to 13 below for a discussion of no-action letters.

Oversight and Compliance—Exemptive Orders and No-Action Letters                         June 29, 2011
Report No. 482
                                               Page 3
primarily by the Office of Compliance Inspections and Examinations (OCIE) as
part of its inspection and examination activities.

However, exemptive relief was not intended to provide unrestricted or unlimited
relief from securities laws and rules. For example, the Commission noted the
following in a July 15, 1960, Formal Opinion regarding the general exemptive
authority under the Investment Company Act: “[T]he exceptional power under
Section 6(c) to free any person from any or all provisions of the [Investment
Company] Act is one which must be exercised with circumspection and with full
regard to the public interest and the purposes of the [Investment Company] Act .
. . .”11 According to the SEC’s website, in order to provide exemptive relief under
Section 36 of the Exchange Act, “the Commission must determine that the
exemption is necessary or appropriate in the public interest and is consistent with
the protection of investors.” 12 While the Commission may provide unconditional
exemptive relief, the exemptive relief granted by the Commission typically
requires compliance with certain conditions. If the SEC grants an application for
an exemption that contains conditions, the requestor must adhere to the
conditions of the exemptive order issued by the Commission or a Division acting
pursuant to delegated authority in order for the exemption to have any effect.

A 2005 staff report to the Commission described the role of conditions in
exemptive relief. According to the IM report,

           Congress granted broad authority to the Commission to provide
           exemptions, conditionally or unconditionally, from the [Investment
           Company] Act, when the exemptions are in the public interest and
           consistent with the protection of investors and the purposes of the
           [Investment Company] Act. Since 1940, the Commission has
           adopted a variety of exemptive rules that permit otherwise
           prohibited transactions, but only under certain conditions . . . that
           help to deter overreaching by fund managers and protect the
           interests of fund investors.

                                                   ***

           The exemptive rules permit certain activities only under conditions
           that are designed to help ensure that funds and their investors are
           adequately protected from the risks posed by the conflicts of
           interest. Some of the conditions that the Commission has included
           as a part of its exemptive orders and rules include [Independent
           Legal Counsel, Independent Bidding Process, Separate Advisory



11
     In re The Great American Life Underwriters, Inc., File No. 811-423 (July 15, 1960) at 5 (footnote omitted).
12
     “Exchange Act Exemptive Applications,” www.sec.gov/rules/exempt.shtml.

Oversight and Compliance—Exemptive Orders and No-Action Letters                                 June 29, 2011
Report No. 482
                                                     Page 4
        and Broker-Dealer Operations, Limits on Control and Audit
        Reports]. 13

Exemptive orders allow entities to engage in transactions that would otherwise
be prohibited by the provisions from which relief was requested. Noncompliance
with the conditions of an exemptive order negates the ability of the recipient to
rely on the exemption, and may result in a violation of the applicable securities
laws or regulations. According to senior management staff in IM, CF, TM, and
OCIE, noncompliance with the conditions of exemptive orders renders the order
inapplicable to the transaction for which the relief was requested, and the order
will be treated as if it did not exist.

The following are examples of exemptive orders, including the conditions thereto,
that were issued by the Commission, or a Division pursuant to delegated
authority:

        Distributions of Long-Term Capital Gains by Closed-End
        Investment Companies

        An exemptive order was requested “to permit a registered closed-
        end investment company to make periodic distributions of long-term
        capital gains with respect to its common shares as often as monthly
        in any one taxable year, and as frequently as distributions are
        specified by or in accordance with the terms of its preferred
        shares.” 14 The relief was required because “Section 19(b) of the
        [Investment Company] Act generally makes it unlawful for any
        registered investment company to make long-term capital gains
        distributions more than once every twelve months.”15 The applicant
        agreed that the requested relief would be subject to a number of
        conditions, including review and reporting by the fund’s Chief
        Compliance Officer as to whether the fund and its investment
        adviser had complied with the conditions of the order; disclosures
        to fund shareholders regarding distributions on a per share basis
        and other information; and certain disclosures to shareholders,
        prospective shareholders, and third parties. 16

        Subadvisory Agreements Without Shareholder Approval

        A series of funds requested an exemption from Section 15(a) of the
        Investment Company Act and Rule 18f-2 thereunder to be

13
   Staff Report to the Securities and Exchange Commission, Exemptive Rule Amendments of 2004: The
Independent Chair Condition (April 2005), pp. 2, 13-14 (footnote omitted).
14
   Investment Company Act Release No. 28938; Evergreen Income Advantage Fund et al.; Notice of
Application (Sep. 30, 2009), at 1.
15
   Id. at 5.
16
   Id. at 11-18.

Oversight and Compliance—Exemptive Orders and No-Action Letters                       June 29, 2011
Report No. 482
                                              Page 5
        permitted to enter into and materially amend subadvisory
        agreements without shareholder approval and for relief from certain
        disclosure requirements. 17 According to Section 15(a) of the
        Investment Company Act, “it is unlawful for any person to act as an
        investment adviser to a registered investment company except
        pursuant to a written contract that has been approved by a majority
        vote of the company’s outstanding voting securities. Rule 18f-2
        under the Act provides that each series or class of stock in a series
        investment company affected by a matter must approve that matter
        if the Act requires shareholder approval.” 18

        The conditions agreed to by the applicants included, but were not
        limited to, the following:

             •   The operation of a fund in the manner described in the
                 application will be approved by a majority of the fund’s
                 outstanding voting securities before a fund may rely on the
                 order requested in the application, and the prospectus for
                 each fund will disclose the existence, substance, and effect
                 of any order granted pursuant to the application.
             •   The affected fund’s shareholders will be furnished all
                 information about the new subadviser that would be included
                 in a proxy statement within 90 days after hiring a new
                 subadviser, except as modified to permit aggregate fee
                 disclosure.
             •   The adviser will not enter into a subadvisory agreement with
                 any affiliated subadviser without approval of the agreement,
                 including the compensation to be paid, by the shareholders
                 of the applicable fund.
             •   At least a majority of the board will be independent board
                 members, and nomination of new or additional independent
                 board members will be placed within the discretion of then-
                 existing board members.
             •   Each fund will disclose the aggregate fee disclosure in its
                 registration statement. 19

        Nationally Recognized Statistical Rating Organization
        Conflicts of Interest

        The Commission, on May 19, 2010, “conditionally exempted, with
        respect to certain credit ratings and until December 2, 2010,
        nationally recognized statistical rating organizations (‘NRSROs’)

17
   Investment Company Act Release No. 28808; GE Funds et al.; Notice of Application (July 2, 2009), at 1.
18
   Id. at 5.
19
   Id. at 7-12.

Oversight and Compliance—Exemptive Orders and No-Action Letters                            June 29, 2011
Report No. 482
                                                Page 6
        from certain requirements in Rule 17g-5(a)(3) under the [Exchange
        Act] . . . . 20 “The Commission [then extended] the temporary
        conditional exemption exempting NRSROs from complying with
        Rule 17g-5(a)(3) with respect to rating covered transactions until
        December 2, 2011.”21

        According to the Order extending the exemption, “Paragraph (a) of
        Rule 17g-5 prohibits an NRSRO from issuing or maintaining a
        credit rating if it is subject to the conflicts of interest identified in
        paragraph (b) of Rule 17g-5 unless the NRSRO has . . . disclosed
        the type of conflict of interest in Exhibit 6 to Form NRSRO in
        accordance with Section 15E(a)(1)(B)(vi) of the Exchange Act and
        Rule 17g-1. . . and . . . established and is maintaining and
        enforcing written policies and procedures to address and manage
        conflicts of interest in accordance with Section 15E(h) of the
        Exchange Act[].” 22 In December 2009, the Commission adopted
        Rule 17g-5(a)(3), which “requires an NRSRO that is hired by an
        arranger to determine an initial credit rating for a structured finance
        product to take certain steps designed to allow an NRSRO that is
        not hired by the arranger to nonetheless determine an initial credit
        rating—and subsequently monitor that credit rating—for the
        structured finance product.” 23

        The Commission extended until December 2, 2011, the exemption
        from the requirements of Rule 17g-5(a)(3) if the following conditions
        exist: “(1) The issuer of the security or money market instrument is
        not a U.S. person . . . ; and (2) The [NRSRO] has a reasonable
        basis to conclude that the structured finance product will be offered
        and sold upon issuance, and that any arranger linked to the
        structured finance product will effect transactions of the structured
        finance product after issuance, only in transactions that occur
        outside the U.S.”24

No-Action Letters
In some instances, instead of exemptive relief from the provisions of the
securities laws, a company will request assurances, known as “no-action” letters,
from Commission staff that it will not recommend enforcement action for the
company’s proposed activity. No-action letters expressly represent only a

20
   Release No. 34-63363, Order Extending Temporary Condition Exemption for Nationally Recognized
Statistical Rating Organizations From Requirements of Rule 17g-5 Under the Securities Exchange Act of
1934 and Request for Comment (Nov. 23, 2010), at 1 (footnote omitted).
21
   Id.
22
   Id. at 2 (footnotes omitted).
23
   Id. (footnote omitted).
24
   Id. at 8.

Oversight and Compliance—Exemptive Orders and No-Action Letters                          June 29, 2011
Report No. 482
                                               Page 7
position by the staff as to whether it would recommend enforcement action to the
Commission based on the facts and circumstances described in the incoming
letter(s), and the letters expressly do not represent legal conclusions or opinions.
No-action letters are intended to assist industry in complying with the securities
laws by providing the Divisions’ staff positions on contemplated transactions.

The Commission staff provide no-action letters under the Commission’s rules
pertaining to informal procedures. Rule 202.1(d) provides, in part, as follows:,

         The informal procedures of the Commission are largely concerned
         with the rendering of advice and assistance by the Commission’s
         staff to members of the public dealing with the Commission. While
         opinions expressed by members of the staff do not constitute an
         official expression of the Commission’s views, they represent the
         views of persons who are continuously working with the provisions
         of the statute involved. And any statement by the director,
         associate director, assistant director, chief accountant, chief
         counsel, or chief financial analyst of a division can be relied upon
         as representing the views of that division. 25

The Commission is not bound by staff no-action letters, and the letters are not
rulings of the Commission or its staff on questions of law or fact. 26 Also, “such
letters are not intended to affect the rights of private persons.”27 According to a
former SEC Chairman, although the no-action letter has “no binding effect and is
of limited legal significance, [the Commission has] found that the bar regards it as
an important and useful device. In substance, the ‘no-action’ letter is a statement
by the staff that, on the facts presented to them, they will not recommend that the
Commission take any action if the attorney proceeds on the basis of his opinion
that the statutes do not prohibit his proposal.”28

According to a December 1977 Division of Market Regulation (now TM)
memorandum,

         An exemption from a Rule is [sic] generally confers greater benefits
         on the recipient than a no-action position under the Rule though the
         difference in benefit may be more apparent than real. An
         exemption is granted pursuant to delegated authority and precludes
         the Commission from bringing any action under the Rule, assuming
         that the facts on which the exemption is granted are accurate and

25
   17 C.F.R. § 202.1(d).
26
   Commission Release No. 33-5691, No-Action and Interpretive Letters—Monthly Publication of List of
Significant Letters Issued by the Division of Corporation Finance (Mar. 17, 1976), 41 Fed. Reg. 13682 (Mar.
31, 1976).
27
   Id.
28
   Address by Edward N. Gadsby, Chairman, Securities and Exchange Commission, to the Federal Bar
Association, The Approach of the Practitioner to the S.E.C. (Sep. 17, 1960), p. 3.

Oversight and Compliance—Exemptive Orders and No-Action Letters                             June 29, 2011
Report No. 482
                                                 Page 8
        complete. An exemption is also understood to preclude, at least as
        a practical matter, civil suits by private litigants. A no-action
        position precludes only this Division from recommending action
        under the Rule though it is very unlikely, as a practical matter, that
        the Commission would bring an action in a situation where this
        Division had taken a no-action position. 29

In written requests to the Divisions’ staff for no-action relief, applicants are to
include

     (1) information on the proposed activities,
     (2) analysis of the particular facts and circumstances involved,
     (3) discussion of the applicable laws and rules, and
     (4) representations regarding steps they will take in connection with the
         proposed transaction, such as disclosures or additional processes.

A Division staff member, usually an attorney, reviews the request and, if the
request is granted, responds to the applicant, indicating that the staff will not
recommend enforcement action to the Commission based on the facts and
representations made in the request.

The Division staff clearly state in these letters that no-action relief was provided
solely based on the facts and representations presented and that any different
facts or conditions might require another conclusion. Also, the Division staff state
that the no-action letter refers to the staff’s view on enforcement action only and
does not express any legal conclusions on the question presented. For example,
a CF no-action letter included the following statement: “This position is based on
the representations made to the Division in your letter. Any different facts or
conditions might require the Division to reach a different conclusion. Further, this
response expresses the Division's position on enforcement action only and does
not express any legal conclusion on the question presented.”30

Initially, the Commission did not make no-action letters available to the public.
According to a 1968 Commission release, “[i]n the past, neither interpretive
letters, no-action letters, nor the inquiries upon which they have been based have
generally been made available to the public. In part, this policy has been based
upon a belief that a member of the public should be able to obtain the advice of
the Commission’s staff without fear that information provided to the staff for that
purpose might be made public in a manner that might adversely affect his lawful
business activities or invade his personal privacy.” 31 The Commission


29
   Memorandum to Market Structure and Trading Practices Attorneys, December 9, 1977, Staff Meeting
Guidelines for Granting Exemptions and Taking No-Action Positions (Dec. 8, 1977), p. 6.
30
   Division of Corporation Finance No-Action Letter, ViewSonic Corporation (Mar. 14, 2008).
31
   Release No. 33-4924, Request for Comments on Whether Staff Interpretative and No-Action Letters
Should Be Made Available to the Public (Sep. 20, 1968), at 3.

Oversight and Compliance—Exemptive Orders and No-Action Letters                        June 29, 2011
Report No. 482
                                              Page 9
reconsidered this position in a request for comments on making no-action letters
publicly available, stating the following:

           On the other hand, it has been stated that it would seem
           anomalous that an agency which embraces disclosure as a
           fundamental philosophy should adopt a flat non-disclosure policy
           with respect to administrative determinations it generates . . . .
           [P]ractitioners might find these letters helpful . . . . Further
           advantage of public disclosure may result from the fact that some
           persons may be less than candid in purporting to provide the
           complete and accurate information requested by the staff; if a
           procedure were adopted by which all requests for no-action and
           interpretative letters were made public in the form in which
           received, it is argued that this would be less likely to occur.
           Another possible advantage of public disclosure might be that of
           discouraging unnecessary requests. The Commission’s staff has
           been faced with a growing volume of requests and has found it
           increasingly difficult to devote to each the degree of analysis it
           deserves. . . . [E]ven full public disclosure may not be considered
           too high a price to pay for the expert views of the staff on novel
           questions of law or on the application of existing principles to novel
           or unusually complex factual situations.”32

The Commission has made no-action letters available to the public since 1970.

The following are examples of no-action letters issued by staff of the Divisions:

           Investment Advisers’ Marketing Materials

           IM staff responded to a request for assurances that it would not
           recommend enforcement action to the Commission under Section
           206(4) of the Advisers Act and Rule 206(4)-1(a)(2) thereunder
           against the requester’s investment adviser subsidiaries if they
           “distribute certain marketing materials to prospective clients and
           current clients who are not invested in the investment strategy to
           which the marketing materials relate . . . that show no fewer than
           five holdings that contributed most positively to a representative
           account’s performance and an equal number of holdings that
           contributed most negatively to the representative account’s
           performance.” 33

           The staff noted that “Section 206(4) of the Advisers Act prohibits
           investment advisers from engaging in any act, practice, or course of

32
     Id. at 3-4 (quotations and footnote omitted).
33
     Division of Investment Management No-Action Letter, The TCW Group, Inc. (Nov. 7, 2008), p. 1.

Oversight and Compliance—Exemptive Orders and No-Action Letters                             June 29, 2011
Report No. 482
                                                 Page 10
         business that the Commission, by rule, defines as fraudulent,
         deceptive or manipulative. Rule 206(4)-1(a)(2) under the Advisers
         Act generally provides that it is a fraudulent, deceptive, or
         manipulative act, practice, or course of business for any investment
         adviser to publish, circulate, or distribute any advertisement ‘which
         refers, directly or indirectly, to past specific recommendations of
         such investment adviser which were or would have been profitable
         to any person . . . .’ Rule 206(4)-1(a)(2), however, does not prohibit
         an advertisement ‘which sets out or offers to furnish a list of all
         recommendations made by such investment adviser’ during the
         preceding year, provided that the advertisement or the list contains
         certain specific disclosures about the recommendations.”34

         The IM staff granted the requested no-action relief based upon the
         applicant’s representations, which included the following:

             •    The calculation “will take into account consistently the
                  weighting of every holding in the representative account that
                  contributed to the account’s performance” during the
                  measurement period, and the charts will consistently reflect
                  the results of the calculation.
             •    The charts’ presentation of information and the number of
                  holdings will be consistent from measurement period to
                  measurement period.
             •    The charts will show no fewer than 10 holdings, including an
                  equal number of positive and negative holdings. 35

         Reporting of Beneficial Ownership Information

         In this no-action letter, CF staff stated that CF would not
         recommend enforcement action to the Commission if the requester
         and certain of its entities (Qualifying Entities) “report beneficial
         ownership on Schedule 13G under those circumstances in which
         they could so report if they were entities of the type identified in
         Rule 13d-1(b)(1)(ii) under the [Exchange Act].” 36

         The staff noted that the applicants made representations “regarding
         the comparability of the relevant foreign laws that govern [the
         requester] and the Qualifying Entities to the U.S. laws governing
         entities of the type listed in Rule 13d-1(b)(1)(ii).” 37 The staff also

34
   Id. at 2 (footnote omitted).
35
   Id. at 4.
36
   Division of Corporation Finance No-Action Letter, Orbis Group and certain of its Qualifying Entities (July
16, 2008).
37
   Id.

Oversight and Compliance—Exemptive Orders and No-Action Letters                                June 29, 2011
Report No. 482
                                                  Page 11
        noted the requester’s “undertaking to furnish upon request the
        information that would be required by Schedule 13D.”38

        Broker-Dealer Confirmations

        TM staff responded to a request for assurance that TM staff “would
        not recommend enforcement action under Rules 17a-3(a)(8) and
        17a-4 of the [Exchange Act] against [the requester’s] broker-dealer
        customers that depend on [the requester] to transmit confirmations
        of purchases and sales of securities (the ‘Broker-Dealer
        Participants’), if these Broker-Dealer Participants rely on [the
        requester] to maintain and preserve such confirmations under
        Exchange Act Rule 17a-4(i) . . . . 39 According to the no-action
        letter, “Broker-Dealer Participants currently transmit to [the
        requester] all of the disclosures included on each electronic
        confirmation . . . on a transaction-by-transaction basis. Under [a
        previous no-action letter], Broker-Dealer Participants will provide
        [the requester] with the types of disclosures that the Broker-Dealer
        Participant customarily includes on the back of a paper
        confirmation, and when an electronically-delivered . . . confirmation
        is sent to a customer, [the requester] will make the applicable
        disclosures available to the customer via a URL link stamped on
        the confirmation. Thus, when [the requester] delivers an electronic
        confirmation . . . , a Broker-Dealer Participant will no longer need to
        transmit to [the requester] the disclosures customarily provided on
        the back of a paper confirmation for each confirmation [the
        requester] issues, because the Broker-Dealer Participant will have
        previously transmitted this information to [the requester].” 40

        The staff noted that “[u]nder Rule 17a-4(i), the Broker-Dealer
        Participants will rely on [the requester] to satisfy the requirements
        of Rule 17a-3(a)(8) to make and keep current a complete copy of
        each . . . confirmation delivered to a customer, as well as to
        preserve such confirmations under Rule 17a-4(b)(1).” 41 The staff
        further noted that the requester “will preserve the confirmations as
        is required by Rule 17a-4; and that [the requester] and each
        Broker-Dealer Participant that engages [the requester] as a third
        party recordkeeper as described in [the incoming] letter will enter
        into an agreement setting forth the obligations and representations
        of each party under the arrangement, consistent with the
        representations contained in [the incoming] letter.”42 The staff then

38
   Id.
39
   Division of Trading and Markets No-Action Letter, Omgeo LLC (Mar. 19, 2009), at 1.
40
   Id. at 2.
41
   Id.
42
   Id.

Oversight and Compliance—Exemptive Orders and No-Action Letters                         June 29, 2011
Report No. 482
                                               Page 12
           stated, “We also note that each Broker-Dealer Participant is
           required by Form BD to promptly notify regulators of any third party
           books and records maintenance requirements. Finally, we note
           that [the requester] has made the representations and agreements
           required by Rule 17a-4(i).” 43

Monitoring Conditions of Exemptive Orders and
Representations in No-Action Letters
OCIE conducts examinations of firms that are registered with the Commission,
including registered broker-dealers, transfer agents, clearing agencies,
investment advisers, and investment companies (regulated entities). During
examinations, OCIE staff seek to determine whether an entity’s activities are
conducted in accordance with the federal securities laws. According to OCIE, it
has been a longstanding practice for examiners to review, as part of pre-
examination work, exemptive orders and no-action letters that have been issued
to the registrant being examined. During an examination, examiners may review
for compliance with the conditions of any applicable exemptive orders and no-
action letters if they fall within the scope of the examination. OCIE indicated that
an examination report or deficiency letter will include the results of OCIE’s review
of compliance with exemptive orders or no-action letters if potential violations of
the law are found.

TM’s Office of Market Operations has on occasion reviewed compliance with
information technology-related conditions of certain temporary exemptive orders,
but does not engage in any systematic monitoring of such orders.

The primary record of exemptive orders and no-action letters is contained on the
Commission’s website at www.sec.gov. On the website, each Division includes
its exemptive orders and no-action letters. TM lists such orders and letters by
subject category, chronologically, and alphabetically by entity. The Divisions also
maintain various internal systems to track the processing of these orders and
letters.

Objective
Objective. This review was conducted as part of our annual audit plan. The
objective was to assess the Commission’s processes for ensuring adherence to
the conditions under which exemptive orders and no-action letters are granted to
regulated entities.




43
     Id.

Oversight and Compliance—Exemptive Orders and No-Action Letters           June 29, 2011
Report No. 482
                                         Page 13
            Findings and Recommendations

Finding 1: The SEC’s Divisions That Issue
Exemptive Orders and No-Action Letters Do Not
Have a Coordinated Process for Ensuring
Adherence to the Conditions and Representations
Contained Therein
              TM, IM and CF indicated that they generally do not
              conduct any monitoring for compliance with the
              conditions and representations in the exemptive
              orders and no-action letters they issue. TM and IM
              believe that it is the responsibility of OCIE to conduct
              inspections and examinations and rely on OCIE’s
              results. CF indicated that it reviews filings submitted
              by companies to the Commission, but it does not
              have the authority to conduct examinations of
              companies to review compliance with no-action letters
              and exemptive orders. TM’s Office of Market
              Operations has on occasion reviewed compliance
              with information technology-related conditions of
              certain temporary exemptive orders, but does not
              engage in any systematic monitoring of such orders.

Staff in IM and CF indicated that they do not conduct any monitoring for
compliance with the conditions and representations in no-action letters and
exemptive orders. IM staff stated that IM did not conduct regular reviews to
determine whether applicants complied with the conditions of the exemptions it
has granted. IM staff indicated that, in their view, OCIE’s on-site examinations
and inspections are the primary means to monitor regulated entities’ compliance
with exemptive orders and no-action letters. CF reviews and issues comments to
improve disclosures in filings by publicly held companies (e.g., initial public
offering registrations, annual and quarterly reports, tender offer filings, and
mergers and acquisition filings). These companies can include both
nonregulated entities, such as issuers of securities or Exchange Act registrants,
and certain regulated entities. CF staff noted that CF does not have examination
authority and does not audit for compliance because exemptive orders and no-
action letters are not applicable if the conditions or representations in the orders
or no-action letters have not been adhered to, i.e., they are “self-executing.” CF
staff stated that it is in the applicant’s interest to comply with the conditions or
representations in exemptive orders or no-action letters because of the


Oversight and Compliance—Exemptive Orders and No-Action Letters          June 29, 2011
Report No. 482
                                       Page 14
investment made in legal assistance and in negotiating the relief and the
conditions during the processing of the application

TM staff stated that TM generally does not review for compliance with exemptive
orders and no-action letters. TM staff indicated that the responsibility for
compliance with the conditions and representations in exemptive orders and no-
action letters is given to the entities themselves. TM staff noted that no-action
letters contain a statement that if there is a material change in the facts and
circumstances related to the relief sought, the letter no longer applies. However,
TM’s Office of Market Operations has on occasion conducted reviews of the
information technology-related conditions of the temporary exemptive relief
provided to certain clearing agencies to allow them to serve as central
counterparties for credit default swaps, although it does not engage in any
systematic monitoring of such orders. TM staff indicated that this was a unique
situation because these inspections were required as one of the conditions of the
exemptive relief that was granted. TM staff also indicated that, in their view,
OCIE examinations and inspections are the primary means to monitor
compliance with exemptive orders and no-action letters.

While there is some monitoring of certain matters involving exemptive and no-
action relief (e.g., central counterparty clearing of credit default swaps, securities
lending, fund distributions of long-term capital gains), the processes for such
monitoring are uneven and do not appear to be coordinated. The following is an
example of exemptive and no-action relief provided by the Divisions and
monitoring efforts.

Auction Rate Securities. In 2008, TM, CF, and IM granted exemptive and no-
action relief to a number of firms to allow them to make offers to buy back auction
rate securities (i.e., bonds for which the interest rate is reset on a recurring basis)
as agreed to in an enforcement settlement. These firms agreed to buy back
these securities, which had been marketed as highly liquid and safe investments,
from customers such as individual investors, small businesses, and charities
after the market for the securities collapsed, leaving the customers with illiquid
securities for which there was no market demand. 44 To purchase these
securities, the firms needed relief from a number of requirements, including the
tender offer, beneficial ownership, and filing requirements of the Exchange Act
and the Investment Company Act. The conditions for this relief included
purchasing the securities at no less than par value plus dividends or interest,
maintaining the appropriate information on the buybacks, and making that
information available to TM, and filing certain forms. 45


44
   Press Release 2008-81, SEC Enforcement Division Announces Preliminary Settlement With Merrill Lynch
to Help Auction Rate Securities Investors (Aug. 22, 2008).
45
   Responses of the Office of Mergers and Acquisitions, Division of Corporation Finance, the Division of
Trading and Markets and the Division of Investment Management, Auction Rate Securities—Global
Exemptive Relief (Sept. 22, 2008).

Oversight and Compliance—Exemptive Orders and No-Action Letters                          June 29, 2011
Report No. 482
                                              Page 15
TM and CF staff indicated that TM and CF performed little, if any, monitoring of
compliance with the conditions and representations relating to the relief granted.
IM staff stated that although IM monitored activity in the industry regarding the
repurchases of auction rate securities, it did not monitor compliance with the
conditions and representations related to the exemptive and no-action relief. TM
staff indicated that TM did not perform regular reviews to determine whether the
conditions and representations related to the auction rate securities exemptive
and no-action relief were being complied with. CF also did not perform regular
reviews to determine whether the conditions and representations related to the
exemptive and no-action relief were being complied with. CF staff indicated that
CF was trying to help resolve the liquidity problem with the auction rate securities
and that without the exemptive and no-action relief that allowed modified
reporting, companies would have to submit hundreds of filings as they bought
back these securities. However, CF staff indicated that CF did not have a regular
program for reviewing the filings submitted under the modified reporting
conditions (Schedules 13D or 13G or the ownership reports, i.e., Forms 3, 4, and
5). IM staff indicated that IM did not perform regular reviews to determine
whether the conditions and representations related to the exemptive and no-
action relief were being complied with. However, IM stated that it did generally
monitor the auction rate preferred securities market.

According to the Commission’s rules, the Director of CF is responsible for
administration of the Securities Act, the Exchange Act, and the Trust Indenture
Act of 1939, except for matters relating to investment companies registered
under the Investment Company Act. 46 The Director of TM is responsible for
administration of the Exchange Act “relating to the structure and operation of the
securities markets and the prevention of manipulation in the securities
markets.” 47 The Director of IM is responsible for administration of the
Commission’s responsibilities under the Investment Company Act and the
Advisers Act. 48 The Director of OCIE is responsible for compliance inspections
and examinations of regulated entities, including but not limited to exchanges,
clearing agencies, brokers, dealers, transfer agents, investment companies, and
investment advisers. 49

After the Divisions or their staff issue exemptive orders and no-action letters to
regulated entities, they have no consistent process to determine whether the
conditions and representations in the orders and letters are complied with and
rely primarily on risk-based OCIE examinations for monitoring. IM and TM staff
indicated that they provide input into OCIE’s examination process, meeting with
OCIE both formally and informally to discuss risk, examination planning, and
examination findings. However, the Divisions and OCIE do not view exemptive

46
   17 C.F.R. § 200.18.
47
   17 C.F.R. § 200.19a.
48
   17 C.F.R. § 200.20b.
49
   17 C.F.R. § 200.19c.

Oversight and Compliance—Exemptive Orders and No-Action Letters        June 29, 2011
Report No. 482
                                       Page 16
orders and no-action letters per se, as potential risks because of the self-
executing nature of the relief granted (see Finding 4).

Overall, our review found that the Divisions focused more on processing and
issuing exemptive orders and no-action letters than on monitoring compliance
with the conditions and representations in their exemptive orders and no-action
letters. We further found that the Divisions have established processes and
guidance for the receipt and processing of applications for exemptive orders and
requests for no-action letters, but they rely on OCIE to monitor compliance as
part of its examinations, and have not developed any monitoring procedures.
Moreover, except in a small number of instances, the Divisions appear to rely on
the entity obtaining relief to comply with the conditions and representations in the
orders and letters. However, the Divisions have provided us with no evidence
that companies are able to monitor themselves in this regard.

As noted above, exemptive orders and no-action letters allow industry
participants to conduct activities that, without the relief, could result in a violation
of the securities laws and regulations and/or an enforcement referral. Also, OCIE
provided documentation of instances of noncompliance with the conditions and
representations in exemptive orders and no-action letters it found as a result of
its examinations (for examples, see Finding 4). Notwithstanding the self-
executing nature of the relief, we believe that monitoring is important to ensure
compliance with the conditions and representations in exemptive orders and no-
action letters. This can be achieved by IM and TM and, to the extent applicable,
CF engaging in increased coordination with OCIE’s examinations of regulated
entities’ compliance with the conditions and representations in exemptive orders
and no-action letters.

   Recommendation 1:

   The Divisions of Investment Management, Trading and Markets, and
   Corporation Finance should develop processes, including written policies and
   procedures, for coordination with the Office of Compliance Inspections and
   Examinations regarding reviewing for compliance with conditions and
   representations in exemptive orders and no-action letters issued to regulated
   entities on a risk basis.

   Management Comments. IM, TM, CF and OCIE generally concurred with
   this recommendation. See Appendix V for management’s full comments.

   OIG Analysis. We are pleased that IM, TM, CF and OCIE generally
   concurred with this recommendation.




Oversight and Compliance—Exemptive Orders and No-Action Letters            June 29, 2011
Report No. 482
                                       Page 17
Finding 2: Data on Compliance With the
Conditions and Representations in Exemptive
Orders and No-Action Letters Are Not Effectively
Captured, Tracked, and Analyzed
                  IM, TM, and CF separately maintain their own data on
                  exemptive orders and no-action letters that they
                  process and issue, but the Divisions do not maintain
                  data on compliance with the conditions and
                  representations associated with those orders and
                  letters.

IM, TM, and CF enter and track data regarding processed exemptive orders and
no-action letters in various ad hoc spreadsheets and databases. However, the
data that we received in response to our review requests did not include any
information on compliance with the conditions and representations in exemptive
orders and no-action letters. For example, IM provided us with data that included
the company name, the topic of the relief or the securities law or regulation
involved, and the dates on which the exemptive application was received and
relief was issued, but the data did not contain any information about compliance
with the conditions and representations in the order or letter. Similarly, CF
provided us with a spreadsheet that included company names, types of relief,
and dates issued, but the spreadsheet did not have any information on
compliance with conditions or representations in exemptive orders and no-action
letters. In addition, the Divisions make available lists of exemptive orders and
no-action letters on the Commission’s website, by date, company name, and
subject category, but the website contains no information about compliance with
the conditions or representations in the orders and letters. 50

OCIE’s database tracks information such as the company’s name, examination
number, dates of fieldwork, examiner’s name, and actions taken as a result of an
examination. OCIE’s system also provides the general review areas where
deficiencies were identified (e.g., portfolio management, calculation of net asset
value, safety of fund assets) and tracks information on violations by review area.
OCIE also includes the results of its review of exemptive orders and no-action
letters in its examination reports in instances where noncompliance is found, and
provides copies of such reports to the Divisions. Further, OCIE tracks violations
of the federal securities laws that it identifies in its inspections and examinations.
According to OCIE, failure to comply with an exemptive order or no-action letter
that results in a violation of the federal securities laws would be tracked as a

50
  The Divisions noted that Section 210(b) of the Advisers Act prohibits the Commission from publicly
disclosing the results of any examination of any investment adviser and that, in general, the Commission
keeps nonpublic the results of its examinations.

Oversight and Compliance—Exemptive Orders and No-Action Letters                             June 29, 2011
Report No. 482
                                                Page 18
violation of the specific federal securities law. However, OCIE’s systems would
not identify the exemptive order or no-action letter at issue or the conditions or
representations for which there was noncompliance, or provide any link between
such order or no-action letter and the resulting violations of the federal securities
laws. As a result, without substantial manual effort, OCIE’s database cannot be
used to identify the exemptive orders and no-action letters for which there was
noncompliance with the conditions and representations of the orders or no-action
letters, or to link the noncompliance to the applicable violations of the securities
laws and regulations.

In addition, since the Divisions and OCIE maintain their own data, they are
separately maintaining information on the same entities. For example, if CF
provided exemptive and/or no-action relief to an entity, CF would include the
applicable order or letter in its database; if IM or TM provided relief to the same
entity, IM or TM would include the entity in its database; and if OCIE conducted
an examination of that entity, OCIE would include the information regarding the
examination in its own database. While the Divisions and OCIE occasionally
share information pertinent to exemptive orders and no-action letters, the
process is informal and not systematic. For example, OCIE shares its plans and
the results of its examinations with IM and TM. Also, some no-action letters and
exemptive orders may be developed jointly between IM, CF, and/or TM, and
information may be shared in those instances. However, there is no systematic
sharing or capability of sharing information, and each entity maintains its own
database and lists that are not shared with the others.

The only evidence we saw of the Divisions’ analysis of data on compliance with
exemptive orders related to certain particular and individual issues. For example,
IM analyzed the results of examinations regarding the securities lending
practices of investment companies and, as a result, discontinued providing
exemptive relief that would allow securities lending using an affiliated lending
agent. IM is considering whether to resume issuing relief to engage in securities
lending activities with affiliates and, if so, under what terms and conditions. Also,
TM staff provided information regarding the method that TM developed
specifically to track the results of examinations of clearing agencies operating as
central counterparties for clearing credit default swaps, including compliance with
certain conditions of the applicable temporary exemptive orders.

Because the Divisions do not systematically capture and analyze data on
compliance with the conditions and representations in exemptive orders and no-
action letters, we determined that the Commission is less effective than it could
be in monitoring compliance with such conditions and representations. For
example, the SEC cannot readily identify the regulated entities that have failed to
comply with the terms and conditions of the exemptive and/or no-action relief that
has been provided to them. Also, the SEC does not perform analyses, for
example, to identify the provisions of the securities laws and rules for which
exemptive or no-action relief is most often provided or to identify patterns of

Oversight and Compliance—Exemptive Orders and No-Action Letters         June 29, 2011
Report No. 482
                                       Page 19
noncompliance with the conditions and representations in exemptive orders or
no-action letters, such as the investor protection conditions for which
noncompliance is most often found. As a result, the SEC is less effective than it
could be in monitoring compliance with the investor protection conditions of the
relief it provides to the industry from the provisions of the securities laws and
rules.

Furthermore, because of the manner in which the data are maintained, there is
no single place in the SEC from which it is possible to obtain a combined list of a
company’s exemptions and no-action relief or the results of any reviews of
compliance with the conditions or representations in exemptive orders and no-
action letters. For example, the OIG had to review separate no-action and
interpretive letter listings for each of the Divisions that were found on the
Commission’s public website to determine whether companies had received
letters from more than one SEC Division.

       Recommendation 2:

       The Divisions of Investment Management, Trading and Markets, and
       Corporation Finance, in coordination with the Office of Information
       Technology and the Office of Compliance Inspections and Examinations,
       should develop and implement processes to consolidate, track, and
       analyze information regarding exemptive orders and no-action letters
       issued to regulated entities. These processes should be documented in
       written policies and procedures.

       Management Comments. IM, TM, CF and OCIE generally concurred
       with this recommendation. See Appendix V for management’s full
       comments.

       OIG Analysis. We are pleased that IM, TM, CF and OCIE generally
       concurred with this recommendation.




Oversight and Compliance—Exemptive Orders and No-Action Letters        June 29, 2011
Report No. 482
                                       Page 20
Finding 3: The Organizational Structure of the
Regulatory Programs Separates the Issuance of
Exemptive and No-Action Relief From Compliance
Monitoring
       The SEC organizational structure separates the functions of
       issuing exemptive and no-action relief from compliance
       monitoring. IM, TM, and CF and their staffs grant exemptive
       and no-action relief. OCIE, through its inspections and
       examinations, reviews for compliance with the conditions
       and representations in exemptive orders and no-action
       letters issued to regulated entities. Consequently, the
       rulemaking Divisions do not view compliance monitoring as
       their responsibility.

The SEC’s organizational structure separates the rulemaking and examination
functions. As previously discussed, the rulemaking functions are located in IM,
TM, and CF. These Divisions are responsible for overseeing their respective
areas of the securities laws and regulations and drafting and proposing rules.

According to 17 C.F.R. § 200.20b, the Director of IM

       is responsible to the Commission for the administration of
       the Commission’s responsibilities under the [Investment
       Company Act and the Advisers Act] . . . with respect to
       matters pertaining to investment companies registered under
       the Investment Company Act . . . and pooled investment
       funds or accounts, the administration of all matters relating
       to establishing and requiring adherence to standards of
       economic and financial reporting and the administration of
       fair disclosure and related matters under the [Securities Act
       and the Exchange Act] . . . . These duties shall include
       inspections arising in connection with such administration
       but shall exclude enforcement and related activities under
       the jurisdiction of the Division of Enforcement.

According to 17 C.F.R. § 200.19a, the Director of TM

       is responsible to the Commission for the administration and
       execution of the Commission’s programs under the
       [Exchange Act] relating to the structure and operation of the
       securities markets and the prevention of manipulation in the
       securities markets. These responsibilities include oversight


Oversight and Compliance—Exemptive Orders and No-Action Letters        June 29, 2011
Report No. 482
                                       Page 21
           of the national market system, the national clearance and
           settlement system, and self-regulatory organizations, such
           as the national securities exchanges, registered securities
           associations, clearing agencies, the Municipal Securities
           Rulemaking Board, and the Securities Investor Protection
           Corporation. . . . The functions involved in the regulation of
           such entities include reviewing proposed rule changes of
           self-regulatory organizations, recommending the adoption
           and amendment of Commission rules, responding to
           interpretive, exemptive, and no-action requests, and
           conducting inspections, examinations, and market
           surveillance.

According to 17 C.F.R. § 200.18, the Director of CF

           is responsible to the Commission for the administration of all
           matters (except those pertaining to investment companies
           registered under the Investment Company Act . . .) relating
           to establishing and requiring adherence to standards of
           business and financial disclosure with respect to securities
           being offered for public sale pursuant to the registration
           requirements of the Securities Act . . . or the exemptions
           therefrom . . . .

TM does have some oversight functions that may pertain to compliance with the
conditions and representations of exemptive orders and no-action letters. For
example, it oversees the implementation of the Commission’s Automation
Review Policy program regarding the Self-Regulatory Organizations’ system
capacity and assessment, notification of system outages, annual reports on
systems, and independent reviews. 51 The Automation Review Policy program
coordinated with OCIE in the reviews of the central counterparties for clearing
credit default swap transactions, conducting its own limited reviews of
compliance with the automation-related conditions of the applicable exemptive
order, but did not conduct any systematic monitoring. TM has advised us that it
views OCIE as being the office with the primary responsibility for monitoring
compliance with exemptive orders and no-action letters.

According to 17 C.F.R. § 200.19c, the Director of OCIE “is responsible for the
compliance inspections and examinations relating to the regulation of exchanges,
national securities associations, clearing agencies, securities information
processors, the Municipal Securities Rulemaking Board, brokers and dealers,
municipal securities dealers, transfer agents, investment companies, and
investment advisers . . . .” Since OCIE inspects and examines regulated entities
including investment companies, investment advisers, and broker dealers,
51
     SEC OIG, Oversight of SRO Automation, Report No. 268 (May 18, 1998).

Oversight and Compliance—Exemptive Orders and No-Action Letters             June 29, 2011
Report No. 482
                                               Page 22
OCIE’s inspection and examination results are relevant to rules and requirements
related to IM’s and TM’s programs. While IM and TM staff receive copies of
OCIE’s examination reports, they only coordinate with OCIE on reviews of the
implementation of certain major Commission initiatives related to exemptive
orders, such as securities lending, NRSROs, and central counterparties for
clearing credit default swaps. Our review found that OCIE provides little
systematic monitoring for IM, TM, or CF, although CF staff indicated that they
receive quarterly reports from OCIE regarding compliance with the nonpublic
offering rules. Furthermore, while IM and TM provide some input to OCIE’s
examination program, OCIE selects its examinations based on its own risk
assessment procedures and has its own priorities for selecting entities for
examinations and inspections.

Our review found that there is no formalized coordination between the SEC’s
rulemaking and examination functions and, as a result, there is no formalized
process for monitoring or ensuring compliance with the conditions and
representations in exemptive orders and no-action letters.

The Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010
(Dodd-Frank Act) requires IM and TM to include examiners in those Divisions
who will report to the Directors of IM and TM. 52 According to legislative history
for this provision, the purpose of this requirement was to “provide each Division
internally with experts in inspections and in the regulations of that Division, who
are closely acquainted with and have access to the staff who write and interpret
those regulations.” 53

           Recommendation 3:

           The Divisions of Investment Management and Trading and Markets
           should, in their plans for implementing Section 965 of the Dodd-Frank Wall
           Street Reform and Consumer Protection Act, develop procedures to
           coordinate their examinations with those conducted by the Office of
           Compliance Inspections and Examinations and, as appropriate, include
           provisions for reviewing for compliance with the conditions in exemptive
           orders and representations made in no-action letters on a risk basis.

           Management Comments. IM and TM generally concurred with this
           recommendation. See Appendix V for management’s full comments.

           OIG Analysis. We are pleased that IM and TM generally concurred with
           this recommendation.



52
     Section 965 of the Dodd-Frank Act, Pub. L. No. 111-203 (July 21, 2010)
53
     Senate Report 111-176, The Restoring American Financial Stability Act of 2010, April 30, 2010, at 143.

Oversight and Compliance—Exemptive Orders and No-Action Letters                               June 29, 2011
Report No. 482
                                                  Page 23
Finding 4: Exemptive and No-Action Relief Are
Not Considered Risk Factors in the Selection of
Firms for OCIE Examinations
         The staffs of the Divisions and OCIE do not view the
         granting of exemptive or no-action relief as, per se, a
         significant risk factor, although the relief allows entities to
         conduct activities that are otherwise contrary to the
         securities laws and regulations, and OCIE has often
         identified problems with entities’ compliance with the
         conditions of the relief granted.

The OCIE and Division staff we interviewed acknowledged that noncompliance
with the conditions and representations in exemptive orders and no-action letters
could result in significant violations of the securities laws and/or OCIE referrals to
the Division of Enforcement. Also, OCIE provided us with documentation of
noncompliance with the conditions and representations in exemptive orders and
no-action letters that it found during its examinations. Yet OCIE and the
Divisions do not view the granting of exemptive and no-action relief, per se, as a
potentially significant noncompliance risk. 54

OCIE has documented that firms sometimes fail to comply with the conditions of
exemptive orders and representations made in requesting no-action relief. OCIE
has, through its examinations, identified instances where the conditions and
representations in exemptive orders and no-action letters have not been
followed. OCIE provided us with information on a total of 477 examination
reports that included a discussion of whether or not firms complied with the
conditions and representations in exemptive orders or no-action letters. Based
on the information provided by OCIE, these 477 examinations represented
approximately 10 percent of the 4,771 examinations completed from January 1,
2008, through March 31, 2010. We reviewed a judgmental sample of 72 of the
477 examination reports to determine the types of deficiencies that OCIE
identified regarding compliance with the conditions and representations in the
exemptive orders or no-action letters. In 44 of these 72 examination reports, we
noted that OCIE found deficiencies in compliance with conditions and
representations in the exemptive orders or no-action letters. 55




54
   Division staff stated that they believe that, generally, the more compliance-oriented market participants
seek exemptive or no-action relief.
55
   When examiners find that an entity is not in compliance with the stated conditions and representations of
an exemptive order or no-action letter on which it purports to rely, they will consider whether the failure
constitutes a violation of the securities laws and, if so, they will provide the entity with a deficiency letter or
consider referring the matter to the Division of Enforcement.

Oversight and Compliance—Exemptive Orders and No-Action Letters                                    June 29, 2011
Report No. 482
                                                    Page 24
The following are examples of noncompliance that we identified in our sample of
OCIE examination reports: 56

     1. In 2005, the examination staff issued a deficiency letter, noting,
        “among other things, that Applicants had failed to adhere to
        representation number eight as outlined in the notice of the filing of
        [their] application for exemptive relief, seeking an exemption from
        Section 17(a) of the Investment Company Act and an order
        permitting certain transactions under Section 17(d) of the
        Investment Company Act and Rule 17d1 thereunder. During the
        current examination, the examination staff found that the Fund’s
        Board’s failure to conduct a particular review no less frequently
        than annually was inconsistent with representation one made in the
        Applicants’ request for an exemptive order.”

     2. “[T]he Funds’ analysis that they could rely on [a 1996 Exemptive]
        Order and [previous no-action letters] . . . ,without going back to the
        staff, appears to be problematic because the details of their current
        securities lending activities do not seem to comport with the details
        of the exemptive application for the 1996 Order or the [no-action
        letters]. [Footnote omitted.]”

     3. “In a no-action letter . . . , staff from [IM] took the position that the
        presentation of performance data without certain accompanying
        disclosures may be misleading and, therefore, in violation of Rule
        206(4)-1(a)(5). . . . [The examination staff] noted the performance
        information contained in the prospective client information packet
        [footnote omitted] did not contain all disclosures as suggested in
        the [referenced] no-action letter. Registrant’s omission of material
        facts and apparent failure to make clear and meaningful disclosures
        about the performance results may be inconsistent with [the no-
        action letter] and therefore may violate Rule 206(4)-1(a)(5).”

     4. “[T]he Registrants obtained an exemptive order [parenthetical
        omitted] that set forth conditions under which [they] could jointly
        invest in portfolio companies alongside [the adviser’s] other fund
        clients. [Footnote omitted.] Such co-investments would otherwise
        be prohibited under Section 57(a)(4) and Rule 17d-1 of the
        [Investment Company] Act. . . . It does not appear that the
        Adviser is complying with all exemptive order conditions, or with
        contract provisions pertaining to co-investments.”


56
  OCIE has informed us that follow-up efforts have been made with respect to the specific examples of
noncompliance that we identified in our review and all of the noted deficiencies have been addressed and
remedied.

Oversight and Compliance—Exemptive Orders and No-Action Letters                            June 29, 2011
Report No. 482
                                                Page 25
     5. “In a SEC no-action letter . . . IM took the position that registered
        investment companies may lend their portfolio securities if certain
        guidelines are met. One guideline states that lending securities
        does not relieve funds of their fiduciary duty to vote proxies and that
        funds may have to recall lent securities to satisfy that duty. . . .
        [T]he Funds[‘] failure to fulfill their proxy voting responsibilities does
        not appear to conform with the . . . [no-action letter] guidance . . . .
        Furthermore, [the examination staff] found that the Funds
        participating in securities lending have not included the disclosures
        described in [a subsequent] no-action letter . . . .”

     6. “Rule 502 of Regulation D precludes an issuer or any person acting
        on an issuer’s behalf from offering or selling securities by any form
        of general solicitation or general advertising . . . . In determining
        what constitutes a general solicitation [CF] has underscored the
        existence and substance of prior relationships between the issuer
        or its agent and those being solicited. . . . [T]he staff notes that the
        no-action letter guidance regarding pre-existing substantive
        relationships refers to relationships formed prior to the offer, not
        prior to the investment. [Footnote omitted.] . . . Registrant’s
        participation in a club for accredited investors and Registrant’s
        communications about specific offerings to persons previously
        unknown to Registrant do not appear to be compliant with the
        provisions of Rule 502(c) of Regulation D and the Commission’s
        interpretive guidance regarding permitted methods of solicitations.
        [Footnote omitted.]”57

     7. A Commission no-action letter “states that, ‘Transactions in blank
        check company securities by their promoters or affiliates, especially
        where they control or controlled the float of freely tradable
        securities, are not the kind of ordinary trading transactions between
        individual investors of securities already issued that Section 4(1) [of
        the Securities Act] was designed to exempt. . . . The letter further
        explains that [Commission] Rule 144 is not available as an
        exemption from registration because such transactions appear to
        be designed to distribute the securities, and any distribution would
        require registration. . . . By failing to conduct a reasonable inquiry
        pursuant to Rule 144(g)(4) to determine if [particular] transactions
        were part of a securities distribution, [the registrant] may have
        violated Section 5 of the Securities Act for facilitating [an]
        unregistered distribution.” 58

57
   The Divisions noted that, in this instance, the regulated entity had failed to comply with Regulation D
under the Securities Act, and that the referenced no-action letter had not created any special or additional
conditions.
58
   The Divisions pointed out that the referenced no-action letter described how to comply with Rule 144
under the Securities Act, but did not add any special conditions.

Oversight and Compliance—Exemptive Orders and No-Action Letters                               June 29, 2011
Report No. 482
                                                 Page 26
       8. “The securities lending program for the Funds . . . enables
          participating portfolios of the Funds to generate additional income
          by lending equity or fixed income securities to the approved
          borrowers. . . . These arrangements, and similar arrangements
          administered by other predecessor affiliates, have been exempted
          from Section 17(a) and Rule 17d-1 of the [Investment Company]
          Act by exemptive orders issued by the Commission. In applying for
          this exemption for [certain funds], [the Registrants’] predecessor
          firms represented that . . . [they] will reallocate or terminate loans
          as necessary to enable a Lending Fund to vote its portfolio
          securities. [Emphasis, citation, and quotations omitted.] . . . The
          Registrants’ practice of not recalling loaned securities to vote
          proxies appears to have contradicted the provisions of [the
          exemptive order] during the time period that the Registrants were
          relying on this exemptive order.”

       9. A condition of an exemptive order provided that neither a trust nor
          any fund would be advertised or marketed as open-end funds or
          mutual funds. The examination staff noted that a statement in a
          marketing presentation of the Registrant “appears to conflict with
          [this] condition of the [previous] Order” and a similar provision of a
          subsequent modified order.

       10. The Registrant had filed an application with IM for an exemptive
           order under various sections of the Investment Company Act.
           “During the staff’s pre-examination work, the staff learned that the
           Exemptive Application had not yet been approved by the Division.
           The staff also learned that even though the Exemptive Application
           had not yet been approved, [the Registrant] has been operating as
           if the Exemptive Application had been approved by the SEC . . . .
           For these reasons, [the Registrant] has not made any regulatory
           filings with the SEC since 2002.”

According to the Commission’s Performance and Accountability Report for Fiscal
Year 2010, “[t]he agency’s risk-based [national examination] program is designed
to focus resources on those firms and practices that have the greatest potential
risk of securities law violations that can harm investors.” 59 For example, OCIE “is
increasingly utilizing a risk-based inspection strategy that relies on a variety of
data points to determine which entities pose the greater risk to investors.” 60 This
risk assessment process includes consideration of a number of factors.
According to OCIE’s February 2011 overview of its examinations, “[t]he staff
draws on numerous sources for identifying higher risk registrants and selected
areas of focus. Sources include, among other things, tips, complaints, and

59
     SEC, FY 2010 Performance and Accountability Report, p. 42.
60
     SEC, FY 2010 Performance and Accountability Report, p. 14.

Oversight and Compliance—Exemptive Orders and No-Action Letters             June 29, 2011
Report No. 482
                                                Page 27
referrals; analysis of outlier or aberrational information provided to investors; prior
examination findings; significant changes in registrants’ business activities; and
registrant or registered representative disclosures regarding regulatory and other
actions brought against them.” 61

According to a recent OIG report on OCIE’s process for selecting regulated
entities for review, “OCIE has developed a risk-based methodology that it uses to
identify ‘high risk’ advisory firms and funds that are selected for routine
examinations. Using its risk-rating system, OCIE assigns a risk level to each
adviser based on: (1) information contained in firms’ annual registration filings
(Form ADV); (2) assessment made during previous examinations of that entity;
and/or (3) staff evaluations or other risk criteria.” 62

This risk-rating system, however, does not include the issuance of exemptive
orders or no-action letters as per se risk factors. These areas are excluded even
though exemptive orders and no-action letters by their nature allow entities to
conduct activities that do not fully comply with securities laws and rules
(otherwise, no relief would be needed), and OCIE examination results have
shown that entities do not always comply with the conditions and representations
in these orders and letters. Neither OCIE nor the Divisions view compliance with
the conditions in exemptive orders or the representations in no-action letters, per
se, as risk factors. In fact, some staff in OCIE and CF expressed the opinion that
entities that have obtained exemptive or no-action relief for an activity present a
reduced risk, since they have come forward and invested resources to clear their
transactions with the Commission before executing them. We also found that
only in rare cases did OCIE focus its examination efforts on an entity’s
compliance with conditions and representations in exemptive orders or no-action
letters. Of the 72 examination reports we reviewed, only 10 included a stated
purpose to review such compliance. Yet in 44 of the 72 reports we reviewed that
discussed compliance with conditions and representations in exemptive orders or
no-action letters, there was significant noncompliance noted.

We are not suggesting that the Divisions and OCIE coordinate to plan reviews of
each and every regulated entity that receives an exemptive order or no-action
letter. However, the Divisions and OCIE could, in carrying out coordinated
monitoring and analysis of compliance with the conditions and representations in
exemptive orders and no-action letters, identify areas of exemptive and no-action
relief to consider as potentially significant risks.




61
   SEC, OCIE, Examinations by the Securities and Exchange Commission’s Office of Compliance
Inspections and Examinations (February 2011), pp. 2-3.
62
   SEC OIG, Review of the Commission’s Process for Selecting Investment Advisers and Investment
Companies for Examinations, Report No. 470 (Nov. 19, 2009), p.15.

Oversight and Compliance—Exemptive Orders and No-Action Letters                        June 29, 2011
Report No. 482
                                             Page 28
       Recommendation 4:

       In connection with monitoring efforts, the Divisions of Investment
       Management and Trading and Markets should include compliance with the
       conditions and representations in significant exemptive orders and/or no-
       action letters issued to regulated entities as risk considerations.

       Management Comments. IM and TM generally concurred with this
       recommendation. See Appendix V for management’s full comments.

       OIG Analysis. We are pleased that IM and TM generally concurred with
       this recommendation.

       Recommendation 5:

       In connection with its compliance efforts, the Office of Compliance
       Inspections and Examinations should include compliance with the
       conditions and representations in significant exemptive orders and/or no-
       action letters issued to regulated entities as risk considerations.

       Management Comments. OCIE generally concurred with this
       recommendation. See Appendix V for management’s full comments.

       OIG Analysis. We are pleased that OCIE generally concurred with this
       recommendation.




Oversight and Compliance—Exemptive Orders and No-Action Letters      June 29, 2011
Report No. 482
                                       Page 29
                                                                    Appendix I


                      Abbreviations/Acronyms

      CF                       Division of Corporation Finance
      IM                       Division of Investment Management
      NRSRO                    Nationally Recognized Statistical Rating
                               Organization
      OCIE                     Office of Compliance Inspections and
                               Examinations
      OIG                      Office of Inspector General
      SEC or Commission        U.S. Securities and Exchange Commission
      TM                       Division of Trading and Markets




Oversight and Compliance—Exemptive Orders and No-Action Letters     June 29, 2011
Report No. 482
                                       Page 30
                                                                       Appendix II


                      Scope and Methodology

Scope. The scope of the review included exemptive orders and no-action letters
that were issued by IM, TM, and CF from January 1, 2008, through March 31,
2010. We did not review monitoring of compliance with specific statutory
exemptions for which no specific application or request was required. Also, we
did not assess waivers from the disqualification provisions of the securities laws
provided as part of Enforcement settlements. To obtain information on
compliance with conditions and representations in exemptive orders and no-
action letters, we requested and reviewed OCIE examination reports issued
between January 1, 2008, and March 31, 2010, that included reviews of
compliance with the conditions and representations in exemptive orders and no-
action letters. We also reviewed five examination reports issued in 2007 that
OCIE provided to the OIG. We conducted our fieldwork from April 2010 to
August 2010 and from October 2010 to February 2011.

Methodology. The review objective was to assess the Commission’s processes
for ensuring adherence to the conditions and representations pursuant to which
exemptive orders and no-action letters were granted to industry applicants. To
address this objective, we interviewed IM, TM, and CF senior staff responsible
for setting overall organization policy and procedures for monitoring compliance
with exemptive orders and no-action letters, as well as for processing
applications for exemptive orders and no-action letters, to identify their processes
for ensuring adherence with the applicable conditions and representations and to
determine their approaches to monitoring compliance after issuing orders and
letters. We requested and reviewed documentation including laws, regulations,
and policies and procedures that might provide guidance for monitoring
compliance. We also interviewed staff in IM, TM, and CF to discuss monitoring
of compliance with exemptive orders and no-action letters in general and to
discuss specific examples. OCIE (including the field office examination
functions) and the Automation Policy Group in TM were the only organizations
that developed examination and review reports. We reviewed a judgmental
sample of these examination reports to identify the exemptive orders and/or no-
action letter conditions and representations that were reviewed and the
conclusions reached, and we discussed our results with the Divisions. We
selected a judgmental sample in order to obtain examples of noncompliance with
the conditions and representations in exemptive orders and no-action letters to
show that entities did not always adhere to those conditions and representations.
Because we used judgmental samples, we cannot project the results based on
our samples to the entire universe from which the samples were taken.

Management Controls. We reviewed controls that were considered significant
within the context of the review objective. Controls significant to our review
objective related to those controls that the Commission designed and

Oversight and Compliance—Exemptive and No-Action Letters               June 29, 2011
Report No. 482
                                       Page 31
                                                                                         Appendix II


implemented to ensure compliance with the conditions and representations in
exemptive orders and no-action letters. To review these controls, we applied the
internal control model published by the Committee of Sponsoring Organizations,
which is also the basis for the Government Accountability Office’s Standards for
Internal Control in the Federal Government. 63 According to the Committee of
Sponsoring Organizations model, there are three fundamental internal control
objectives: effective, efficient operations; reliable financial reporting; and
compliance with laws and regulations. Internal control also includes five
components: control environment, risk assessment, control activities, information
and communication, and monitoring. We interviewed management and staff
from OCIE, IM, TM, and CF. We identified and reviewed applicable policies and
procedures, and we obtained and reviewed other pertinent documentation. We
performed tests to determine the extent of monitoring of compliance with
exemptive order and no-action letter conditions and representations. Finally, we
identified areas for improvement in management controls related to the control
environment, risk assessment, control activities, information and communication,
and monitoring.

Use of Computer-Processed Data. We used exemptive order and no-action
letter data maintained by the Commission on its website at sec.gov. We used
lists of examination reports provided by OCIE to select judgmental samples of
reports to review. We did not perform tests on the general or application controls
of the Commission’s system for maintaining exemptive orders and no-action
letters because such tests were not within our review objective or subobjectives.
We found discrepancies in some of the data that we received from management,
such as missing and incorrect data. Therefore, to the extent practical, we
compared the exemptive order, no-action letter, and examination report data we
received with the underlying documents.

Judgmental Sampling. We selected a judgmental sample of examination
reports that were issued or had disposition dates from January 1, 2008, to March
31, 2010. We selected our judgmental sample of examination reports related to
no-action letters from a list of 456 examination reports provided by OCIE. OCIE
also provided the OIG, in response to other requests, with 21 examination
reports, all of which were reviewed. Our findings applied to the items reviewed
and were not extrapolated to the universe from which our samples were
obtained.

Prior Audit Coverage. The OIG audited the exemptive application process in
IM’s Office of Investment Company Regulation (IM Exemptive Application
Processing, Report No. 408, September 29, 2006) to determine whether the
process was timely and to recommend improvements. The OIG report included
13 recommendations. Recommendations to enhance timeliness included issuing

63
  Government Accountability Office, Standards for Internal Control in the Federal Government, AIMD-00-
21.3.1 (November 1999).

Oversight and Compliance—Exemptive and No-Action Letters                                 June 29, 2011
Report No. 482
                                               Page 32
                                                                          Appendix II


exemptive rules, filing applications electronically, and restricting or eliminating the
review of draft exemptive applications. Other recommendations included
returning poorly prepared applications, developing standard follow-up
procedures, improving performance measures, and revising the database for
exemptive applications. IM concurred with and addressed all 13
recommendations, and all the recommendations were closed.




Oversight and Compliance—Exemptive and No-Action Letters                  June 29, 2011
Report No. 482
                                       Page 33
                                                                        Appendix III


                                      Criteria
Section 28 of the Securities Act of 1933. Section 28 provides general
exemptive authority, allowing the Commission to exempt by rule or regulation,
conditionally or unconditionally, any person, security, or transaction or any class
or classes of persons, securities, or transactions from any provision of the
Securities Act, to the extent that the exemption is necessary or appropriate in the
public interest and is consistent with investor protection.

Section 12(h) of the Securities Exchange Act of 1934. Section 12(h) provides
that “[t]he Commission may by rules and regulations, or upon application of an
interested person, by order, after notice and opportunity for hearing, exempt in
whole or in part any issuer or class of issuers from the provisions of subsection
(g) of this section or from section 13, 14, or 15(d), or may exempt from section 16
any officer, director or beneficial owner of securities of any issuer, any security of
which is required to be registered pursuant to subsection (g) hereof, upon such
terms and conditions and for such period as it deems necessary or appropriate, if
the Commission finds, by reason of the number of public investors, amount of
trading interest in the securities, the nature and extent of the activities of the
issuer, income or assets of the issuer, or otherwise, that such action is not
inconsistent with the public interest or the protection of investors.”

Section 36 of the Securities Exchange Act of 1934. Section 36 provides
general exemptive authority, except for the provisions regarding government
securities brokers and dealers, allowing the Commission to exempt by rule,
regulation, or order, conditionally or unconditionally, any person, security, or
transaction or any class or classes of persons, securities, or transactions from
any provision of the Exchange Act, to the extent that the exemption is necessary
or appropriate in the public interest and is consistent with investor protection.

Section 6(c) of the Investment Company Act of 1940. Section 6(c) provides
general exemptive authority, allowing the Commission to exempt by rules and
regulations upon its own motion or by order upon application, conditionally or
unconditionally, any person, security, or transaction or any class or classes of
persons, securities, or transactions from any provision of the Investment
Company Act or from any Investment Company Act rule, if and to the extent that
the exemption is necessary or appropriate in the public interest and is consistent
with investor protection and the policy and provisions of the Investment Company
Act.

Section 206A of the Investment Advisers Act of 1940. Section 206A provides
general exemptive authority, allowing the Commission to exempt by its own
motion or by rule, regulation, or order upon application, conditionally or
unconditionally, any person or transaction or any class or classes of persons or
transactions from any provision of the Advisers Act, if and to the extent that the

Oversight and Compliance – Exemptive and No-Action Letters               June 29, 2011
Report No. 482
                                        Page 34
                                                                      Appendix III


exemption is necessary or appropriate in the public interest and is consistent with
investor protection and the policy and provisions of the Advisers Act.

17 C.F.R. § 202.1(d). This rule provides the basis for the informal procedures by
which SEC staff issue no-action letters. According to this rule, “[t]he informal
procedures of the Commission are largely concerned with the rendering of advice
and assistance by the Commission’s staff to members of the public dealing with
the Commission. While opinions expressed by members of the staff do not
constitute an official expression of the Commission’s views, they represent the
views of persons who are continuously working with the provisions of the statute
involved.”




Oversight and Compliance – Exemptive and No-Action Letters             June 29, 2011
Report No. 482
                                        Page 35
                                                                     Appendix IV


                      List of Recommendations

Recommendation 1:

The Divisions of Investment Management, Trading and Markets, and Corporation
Finance should develop processes, including written policies and procedures, for
coordination with the Office of Compliance Inspections and Examinations
regarding reviewing for compliance with conditions and representations in
exemptive orders and no-action letters issued to regulated entities on a risk
basis.

Recommendation 2:

The Divisions of Investment Management, Trading and Markets, and Corporation
Finance, in coordination with the Office of Information Technology and the Office
of Compliance Inspections and Examinations, should develop and implement
processes to consolidate, track, and analyze information regarding exemptive
orders and no-action letters issued to regulated entities. These processes
should be documented in written policies and procedures.

Recommendation 3:

The Divisions of Investment Management and Trading and Markets should, in
their plans for implementing Section 965 of the Dodd-Frank Wall Street Reform
and Consumer Protection Act, develop procedures to coordinate their
examinations with those conducted by the Office of Compliance Inspections and
Examinations and, as appropriate, include provisions for reviewing for
compliance with the conditions in exemptive orders and representations made in
no-action letters on a risk basis.

Recommendation 4:

In connection with monitoring efforts, the Divisions of Investment Management
and Trading and Markets should include compliance with the conditions and
representations in significant exemptive orders and/or no-action letters issued to
regulated entities as risk considerations.

Recommendation 5:

In connection with its compliance efforts, the Office of Compliance Inspections
and Examinations should include compliance with the conditions and
representations in significant exemptive orders and/or no-action letters issued to
regulated entities as risk considerations.

Oversight and Compliance – Exemptive and No-Action Letters             June 29, 2011
Report No. 482
                                        Page 36
                                                                                                            Appendix V


                           Management’s Comments




                                                  MEMORANDUM


          Date:          June 28, 2011

          To:            H. David Kotz, Inspector General
                         Office ofInspector General

          From:          Robert Cook, Director, Division of Trading and MarketsfW--
                         Eileen Rominger, Director, Division ofInvestment Manage.!!''1.l! i    ~
                                                                                               '1./
                         Meredith Cross, Director, Division of Corporation Finance~
                         Carlo di Florio, Director, Office of Compliance Inspections and Examinations

                         Mary Schapiro
                         Chairman

          Re:            Management's Response to the Office ofInspector General's Draft Report,
                         Oversight 0/ and Compliance With Conditions and Representations Related to
                         Exemptive Orders and No-Action Letters, Report No. 482 dated May 16, 2011


                  I.     Introduction.

                 The Divisions of Trading and Markets (fM), Investment Management (IM) and
          Corporation Finance (CF) and the Office of Compliance Inspections and Examinations (OClE)
          submit this mernorandwn in response to the Office ofInspector General's (OIG) Draft Report
          No. 482 entitled Oversight ofand Compliance With Conditions and Representations Related to
          Exemptive Orders and No-Action Lellers, dated May 16, 2011 (''Final Draft Report"). Thaok
          you fur the opportimity to respond to the Final Draft Report.

                 With respect to the five recommendations in the Final Draft Report, you requested that
          each director indicate whether or not he or she concurs with the recommendation. Each cfus
          generally concurs with all the recommendations. We note that while we generally concur with
          Recommendation 2, it will require the deployment of significant resources, a factor which could
          impact its timely implementation.

                 Before we respond to the individual recommendations below, we would like to provide
          some background that we believe is important to place the Final Draft Report and our response in
          context.
   ., .
                  II.    Rationale, for granting rellef.

                  Our rules and statutes acknowledge the need to be able to provide relief in appropriste
          circumstances. In fact, many of our rules and statutes contain a specific exemptive authority
          provision that allows market participants to apply for, and for the Commission to grant,




Oversight and Compliance – Exemptive and No-Action Letters                                                   June 29, 2011
Report No. 482
                                                       Page 37
                                                                                              Appendix V




Mr. H. David Kotz
June 28,2011

exemptive relief from the provisions of a rule or statute where appropriate. Exemptive relief
may be issued by the Commission, or by the stafftluough delegated authority. Interpn::tive and
no-action letters are issued by the staff and do not bind the Commission.

        Exemptive relief may be appropriate in various circumstances. For instance, market
participants frequently seek to engage in activity that may be prohibited by a literal reading of
the applicable rule or statute. Relief may be granted to such persons pursuant to safeguards that
are adopted and implemented by condition or where other safeguards are in place that would
render the statutory provision unnecessary. or when the conduct would benefit the market or
investors overall (and it otherwise meets the statutory standard for granting relief).

        In addition, Commission staff may issue relief where it is unclear whether or how a .
particular rule or statute would apply to activity in which a market participant wishes to engage.
Conunission staff sometimes grants relief in those circumstances to provide the market
participant greater legal certainty before it proceeds with the activity, even though it is not clear
that the participant would violate a rule or statute if it were to engage in that activity.

        Finally. Commission staff'may issue reliefto respond to developments in the securities
markets. Securities markets evolve at a fast pace, and sometimes a statute or rule may not
contain an exception fur a spccific product or activity simply because that product or activity was
not present or prevalent at the time ofthe statutory enactment or rulemaking. In that
circumstance, a relief request infurms the staff ofncw products and activities and may form the
basis of future rulemaking. Moreover, during market crises, limited relief may be necessary to
furthcc the protection of investors and to eusure orderly IllWkt:ls. Who;;rt: appropriate, the issuaJlC<;
of relief with specific conditions can provide greater certainty to market participants as to their
responsibilities concerning that product or activity while maintaining important investor
protections.

        m.      Scope of relief.

        The effect of any no-action or exemptive relief is limited by the terms of the relief As a
general matter, a market participant can rely on the relief only if" the participant complies with
the representations made in the request for the relie~ and with any terms and conditions imposed
in the response. Sometimes, however, relief is granted in situations where the application of a
statute or rule is ambiguous; in these cases, the failure to abide by stated terms and conditio.ns
would not necessarily mean that the entity relying on the relief is in violation of a law or rule.
The Commission staff at times grants no ~action relief where the activity does not raise the
concerns that the rule or statute is designed to address and the issuance of relief with specific
conditions provides greater certainty to market participants as to their responsibilities concerning
that activity. Similarly. in those cases, the failure to abide by the conditions and representations
is not necessarily a violation of the rule or statute WIder which no-action reliefwas given.
although it negates the ability ofthe recipient to rely on the staff' position.

        Relief also varies with respect to the entities to which it applies. Sometimes, relief
applies to a single person or transaction only, while other times, relief applies to multiple
persons, transactions and/or activities. For instance, market participants other than the named

                                                   2




Oversight and Compliance – Exemptive and No-Action Letters                                    June 29, 2011
Report No. 482
                                                  Page 38
                                                                                       Appendix V




Mr. H. David Kotz
June 28. 2011

applicants may rely on class exemptive letters, or orders. and certain types of no-action letters.
Also, many exemptive lettecs and orders contain future relief provisions that enable market
participants that are not named applicants to rely on them. The Commission does not know
when market participants rely on class relief unless the market participant infurms Commission
staffofthat reliance, fur example, during an examination. And the Commission's ability to
determine when a market participant is relying on class relief is further limited by the
Commission's lack of examination authority over certain entities, such as issuers that register
their securities offerings, but are not otherwise required to register.

       IV.     Background on examinations.

        The staff believes that, in general. market participants that seek no-action or exe mptive
relicf do so becausc they are attuned to compliance issues and are seeking to confurm their
activities to the Commission's requirements with respect to the particular transaction or activity.
Thus. as a general matter, the staff does not believe that the mere fact that a market participant
sought and received no-action or exempt.ive reliefmearul that the market participant is at a
greater risk of violating the federal securities laws and rules than other market participants.

         oelE has primary responsibility at the Commission for exam.ining certain regulated
entities for compliance with the federal securities laws. The self-regulatory organizations
(SROs) are also responsible fur examining their broker-dealer members fur eompliance with the
federal securities laws as well as SRO roles. In addition, the Commission has a robust
enfurcement program that brings actions against both regulated and unregulated market
participants fur violations of the federal securities laws.

       OCIE conducts examinations of regulated entities, including, among others. registered
brokcr-dealers, transfer agents, clearing agencies. investment advisers. and investment
companies ("regulated entities"). OCIE triages risk when allocating its limited examination
resources and in detennining the scope of a particular examination.

        TM, 1M, CF and OCIE believe that po,t ential non-compliance with the conditions of a no-
action letter or exemptive order does not constitute a greater risk than the failure to comply with
the provisions ofthe statutes and rules administered by the Commission. When conducting an
examination. examiners review the areas within the examination's scope with a fucus on whether
an entity's activity in that area is conducted in accordance with the federal securities laws and
rules and, as applicable, SRO rules. Additionally, if a no-action letter or exemptive order has
been issued to a registrant and is related to issues within the scope ofthc examination, examiners
typically evaluate compliance with the stated eonditions and representations of tho no-action
letter or exemptive order during the examination. In sOme cases, registrants rely on exemptive
orders or no-action letters given to other entities. In such cases, ifOCIE identifies a potential
violation or deficiency at a regulated entity, it is incumbent upon the regulated entity to infonn
the examination staff that it is relying on exemptive or no-action relief and the examination team
would then review whether such reliance is appropriate and whether the regulated entity is
eomplying with all conditions required fur such relief.



                                                 3




 Oversight and Compliance – Exemptive and No-Action Letters                            June 29, 2011
 Report No. 482
                                               Page 39
                                                                                         Appendix V




Mr. H. David Kotz
JWle   28, 201 I

        As descnbed in the Final Draft Report, OCIE evaluates finns' compliance with the terms
of no-action or'exemptive reliefand has identified instances where finns were not complying
with the conditions and representaliOns of exemptive orders and no-action letters. However, it is
important to note that if a regulated entity is unable to dcmonstrale its compliance with all
conditions of the reliet; the market participant mayor may not be in violation oftbe federal
securities laws and rules. The entity's activities may be in compliance with the applicable law or
rule even if a representation or oondilion of the letter is not fulfilled.

        IfOCIE determines that non-comp1iance with the terms of any exemptive order or no-
action letter results in a potential violation of the federal securities laws or rules, OCIE will
generally cite the potential violalion of the underlying law or rule in a deficiency letter.
Depending on the circumstances, the exammalion staff may refer such matters to the relevant
rulemaking djv~ion(s) and. if warranted, to the Division of Enforcement fur further action.

        TM and 1M have input into OCIE's examination process. OCIE meets with TM and 1M
both formany and infurmally to discuss issues such as risks, examination planning, and
examination findings. The examination staff also consuhs with TM and 1M staff regarding
issues that may arise during an examination.

        Given limited resources and broad program responsibilities, TM and 1M have not
undertaken to supplemel)t OCIE's examination fun~ion by establishing Division-specific
programs to examine fur compliance with the federal securities laws, or for compliance with the
terms and conditions of no-action and exemptiv.e relief While we support continued and
enhanced communication. coordination, and-interaction between OCIE and the rulemaking
divisions (TM and 1M. and, where relevant., Cp), we strongly believe that the responsibility to
conduct risk-based reviews fur e:ompliance with the federal securities laws and rules, as well as
with the terms and conditions of no-action letters and exemptive relie~ should remain with OelE
given its experience in this role, as well as the potential for conflicting or duplicative
examination effurts.

        As you note. Dodd-Frank Act Section 965 provides that TM and 1M shall establish
examination staffs within these divisions. TM and 1M are currently in the process of determining
how to most effectively implement this provision. particularly in light of existing budgetary
constraints. While decisions have yet to be made on the most efficient use of such resources,
TM and 1M gener-a.lly expect that, their respective examination staffs will be part of integrated
examination teams that likely will focus on areas that have been prioritized as representing
significant risk.

        We appreciate the opportunity to ~nd to your rooommendations and value the results
of your assessment. Responses to your reoornmendations, as set forth in your Final Draft Report,
are below.




                                                 4




 Oversight and Compliance – Exemptive and No-Action Letters                               June 29, 2011
 Report No. 482
                                                Page 40
                                                                                           Appendix V




Mr. H. David Kotz
June 28. 2011

         V.      Responses to recommendatioDs.

RecommendatioD 1:

The Divisions ofInvcstmcnt Management. Trading and Markets. and Corporation Finance
should develop processes, including written policies and procedures, fur coordination with the
Office ofCompliancc Inspections and Examinations regarding reviewing for compliance with
conditions and representations in exemptive orders and no-action letters issued to regulated
entities on a risk basis.

   •   TM. CF and 1M, in consultation with OCIE. will formalize the process of coordination
       among OCIE, TM, CF and 1M with respect to OCIE's existing risk-based examination
       program fur compliance with the federal securities laws, including its review for
       compliance with the terms and TepI"csentations of excmptivc ordcrs and no-action letters,
       to the extent such orders or letters are significant and issued to regulated entities.

Recommendation 2:

The Divisions ofInvcstment Management, Trading and Mmkets, and Corporation Finance, in
coordination with the Office ofInformation Technology and the Office of Compliance
Inspections and Examinations, should develop and implement processes, to consolidate, track
and analyze infonnation regarding exemptiv~ orders and no-action letters issued to regulated
entities. These procedures should be documented in written policies and procedures.

   •   We support development by the Commission's Office ofInformation Technology (OIT)
       of 8 system to consolidate and track information regarding no-action letters and
       exemptive orders issued to regulated entities, but only to the extent that such orders or
       letters are significant and contingent upon the availability of resources. We agree that a
       consolidated system to identity relief issued by the varlous divisions to individual IIWrlcet
       participants that are registered with the Commission may be a useful tool for OCIE.

   •   The system should provide a field for comment by the divisions responsiblc for providing
       the relief as to whether the filets presented to the staff or the relief g ranted suggest a risk
       factor that should be considered by OelE in examination planning. Our review ofthe
       letters issued in the last 3 months suggests that such a field is likely to be used sparingly
       because, as noted above. in general, exemptive orders and no-action letters are given in
       situations where the risks of non-compliance either with the provisions of the letter or
       with the applicable statutory provision or rule are not high.

   •   Establishing the system is a priority. but may be impacted by resource constraints.




                                                  5




 Oversight and Compliance – Exemptive and No-Action Letters                                 June 29, 2011
 Report No. 482
                                                Page 41
                                                                                         Appendix V




Mr. H. David Kotz
June 28, 2011


Rec:ommendatioD 3:

The Divisions ofInvestffiCnt Management and Trading and Markets should, in their plans for
implementing Section 965 ofllie Dodd-Frank Wall Street Reform and Consumer Protection Act,
develop procedures to coordinate their examinations with those conducted by the Office of
Compliance Inspections and Examinations and,. as appropriate, include provisions fur reviewing
fur compliance with the conditions in exemptive orders and representationS made in no-action
letters on a risk basis.

   •   TM and 1M support the development of procedures to facilitate examinations that
       integrate personnel in those divisions and OClE examiners into joint examination
       activities. As noted. any reviews of compliance with conditions and representations of
       exemptive orders and no-action letters, like the underlying examinations, should be risk-
       based (and. thus, fur example, required only for significant orders or letters). Further,
       such reviews by necessity will be contingent upon the availability of resources. We
       anticipate that TM and 1M likely will have extremely limited examination resources.


Rec:ommendatloD 4:

In connection with monitoring effOrts, the Divisions oflnvestment Management and Trading and
Markets should include compliance with the conditions and representations in significant
exemptive orders and/or no-action letters issued to regulated entities as risk considerations.

   •   It is important to note that Commission staft such as OCIB. primarily conducts risk-
       based reviews and examinations fur compliance rather than engaging in monitoring
       efforts.

   •   TM conducts targeted monitoring for financial and similar risks of certain registrants, but
       generally does not engage in systematic monitoring of compliance with laws or rules, or
       with conditions for exemptive or no-action relief. The scope of this activity is limited to
       the specific risks being monitored. Thus, as a practical matter, such monitoring would
       not normally cover compliance with the majority of exemptions or no-action letters, as
       such letters would not be relevant to the specific risks being reviewed. Of course, if
       during these reviews, the staff is considering matters directly related to a significant no-
       action lettCl' or exemption, the staff would, as appropriate, take into consideration
       whether the risk monitoring should include a review for compliance with conditions and
       representations of that no-action letter or exemption.

   •   Thus, while we support continued and enhanced communication, coordination. and
       interaction between OeIE and the mlemak:ing divisions, we strongly believe that the
       current responsibility to conduct risk-based reviews for compliance with the federal
       securities laws and. rules, as well as with the terms and conditions of no-action letters and
       exemptive relief, should remain with OCIE given its experience in this role, as well as the
       potential fur conflicting or duplicative examination efforts.

                                                 6




 Oversight and Compliance – Exemptive and No-Action Letters                              June 29, 2011
 Report No. 482
                                               Page 42
                                                                                     Appendix V




Mr. H. DavidKotz
June 28, 2011



Recommendation 5:

In connection with its compliance effurts, the Office of Compliance Inspections and
Examinations should include compliance with the conditions and representations in significant
exemptive orders and/or no-action letters issued to regulated entities as risk considerations.

   •   OCIE supports including consideration of compliance with key conditions and
       representations in significant exemptive orders and/or no-action letters as risk
       considerations during its process of selecting and conducting examinations ofregulated
       entities fur compliance with the federal securities laws.




                                               7




Oversight and Compliance – Exemptive and No-Action Letters                            June 29, 2011
Report No. 482
                                             Page 43
                                                                     Appendix VI


      OIG Response to Management’s Comments

The Office of Inspector General (OIG) is pleased that the Divisions of Trading
and Markets (TM), Investment Management (IM), and Corporation Finance and
the Office Compliance Inspections and Examinations (OCIE) concurred with all
five recommendations in this report. We believe that implementing these
recommendations will enhance the Commission’s oversight of compliance with
conditions and representations in exemptive orders and no-action letters.
While the Divisions and OCIE noted resource constraints in their response,
particularly associated with Recommendation No. 2, pertaining to tracking and
analysis, we maintain that the development of a uniform system to consolidate
and track information regarding exemptive orders and no-action letters issued to
regulated entities would significantly strengthen the SEC’s ability to monitor
compliance with the conditions and representations contained therein. We are
pleased that the Divisions and OCIE have indicated that establishing this system
is a priority.

With respect to Recommendation No. 4, we agree that the primary responsibility
for conducting risk-based reviews for compliance with the federal securities laws,
as well as with the conditions and representations in exemptive orders and no-
action letters issued to regulated entities should remain with OCIE. However, we
are also pleased that TM and IM have concurred with the recommendation that
they include compliance with conditions and representations in exemptive orders
and no-action letters as risk considerations in their reviews of matters as
appropriate.




Oversight and Compliance – Exemptive and No-Action Letters            June 29, 2011
Report No. 482
                                        Page 44
                     Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Telephone: 202-551-6061
Fax:       202-772-9265
E-mail:    oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at the SEC,
      contact the Office of Inspector General at

      Telephone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
